<html>
<title> - RESPONDING TO HATE: THE ROLE OF RELIGIOUS ACTORS</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        RESPONDING TO HATE: THE.
                        ROLE OF RELIGIOUS ACTORS

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-1-4]
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                       Available via www.csce.gov
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-212PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    
                    
 
              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island
                                     
                    
                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, to be appointed
                Department of Commerce, to be appointed
                 Department of Defense, to be appointed


                                  (ii)
                                  
                                  
                        RESPONDING TO HATE: THE
                        ROLE OF RELIGIOUS ACTORS

                              ----------                              

                             July 16, 2019

                             COMMISSIONERS

                                                                   Page
Hon. Gwen Moore, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3

Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     8

Hon. Sheila Jackson Lee, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    11

Hon. Brian Fitzpatrick, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    16

Hon. Richard Hudson, Commissioner, Commission on Security and 
  Cooperation in Europe

                               WITNESSES

Father James Martin, Editor at Large, America magazine (via 
  videoconferencing).............................................     5

Imam Gamal Fouda, Imam, Al Noor Mosque (via videoconferencing)...     7

Rabbi Hazzan Jeffrey Myers, Rabbi and Cantor, Tree of Life 
  Synagogue......................................................     9

Radia Bakkouch, President, Coexister.............................    11

Reverend Aaron Jenkins, Vice President of Policy and Advocacy, 
  The Expectations Project.......................................    13

Usra Ghazi, Director of Policy and Programs, America Indivisible, 
  Mayor's Interfaith Council.....................................    16

Alina Bricman, Elected President, European Union of Jewish 
  Students (via videoconferencing)...............................    29

                                APPENDIX

Prepared statement of Hon. Alcee L. Hastings.....................    34

Prepared statement of Hon. Gwen Moore............................    36

Prepared statement of Benjamin L. Cardin.........................    37

Prepared statement of Fr. James Martin...........................    39

Prepared statement of Rabbi Hazzan Jeffrey Myers.................    41

Prepared statement of Ms. Radia Bakkouch.........................    43

Prepared statement of Rev. Aaron Jenkins.........................    45

Prepared statement of Ms. Usra Ghazi.............................    48

Prepared statement of Ms. Alina Bricman..........................    50

 
                        RESPONDING TO HATE: THE.
                        ROLE OF RELIGIOUS ACTORS

                              ----------                              


                             July 16, 2019

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 11:00 a.m. in Room 2200, Rayburn 
House Office Building, Washington, DC, Hon. Gwen Moore, 
Commissioner, Commission on Security and Cooperation in Europe, 

presiding.

    Commissioners present:  Hon. Gwen Moore, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Steve Cohen, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Sheila 
Jackson Lee, Commissioner, Commission on Security and 
Cooperation in Europe; Hon. Brian Fitzpatrick, Commissioner, 
Commission on Security and Cooperation in Europe; and Hon. 
Richard Hudson, Commissioner, Commission on Security and 
Cooperation in Europe.

    Witnesses present:  Father James Martin, Editor at Large, 
America magazine (via videoconferencing); Rabbi Hazzan Jeffrey 
Myers, Rabbi and Cantor, Tree of Life Synagogue; Imam Gamal 
Fouda, Imam, Al Noor Mosque (via videoconferencing); Radia 
Bakkouch, President, Coexister; Reverend Aaron Jenkins, Vice 
President of Policy and Advocacy, The Expectations Project; 
Usra Ghazi, Director of Policy and Programs, America 
Indivisible, Mayor's Interfaith Council; and Alina Bricman, 
Elected President, European Union of Jewish Students (via 
videoconferencing).

   HON. GWEN MOORE, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Moore. Good morning, everyone. I want to welcome you to 
the United States Commission on Security and Cooperation in 
Europe, or better known as the U.S. Helsinki Commission, 
hearing on ``Responding to Hate: The Role of Religious 
Actors.'' We're so happy to be joined today by our expert 
witnesses, some who are appearing here before us today and some 
who are joining us by video. But before I begin, I do want to 
take the opportunity to introduce myself and another 
commissioner who has made his way over here already.
    My name is Gwen Moore. I represent the 4th Congressional 
District of Wisconsin, and I am a very proud member of the 
commission. I want to introduce my good friend, Mr. Hudson, 
from North Carolina, who is a Republican, but on these issues 
we are very much alike. And I want to thank you for your 
attendance.
    We are going to start by hearing first from our witnesses 
who are going to join us by video. So we'll start with the 
Reverend James Martin, Society of Jesus.
    Oh, well, there's a guy who just joined us, little known to 
many people but well known to all of us. He's a--you know, 
coming over from the other House. We're allowing him to join us 
here to repatriate to the House. He was a former member of the 
House, and now is Senator Cardin for Maryland. He's also a 
commissioner. He is the OSCE Parliamentary Assembly Special 
Representative on Anti-Semitism, Racism, and Intolerance for 
the OSCE Parliamentary Assembly.
    And he is very, very active in the Helsinki Commission, and 
does a lot of legislation on this issue. And, Senator, thank 
you for joining us this morning.
    I just want to thank Chairman Hastings for allowing me the 
opportunity to preside over this hearing this morning on such a 
critically important matter. At 10:25 a.m. on August 5th, 2012, 
first responders were alerted to respond to a shooting in Oak 
Creek, Wisconsin. Next month, we will remember the lives of six 
Sikh worshipers murdered 7 years ago. Six bright lights snuffed 
out by the cowardice and intolerance of hate-motivated 
violence. The Sikh and non-Sikh Oak Creek community, the entire 
Milwaukee area community where I am blessed to serve, and the 
world were horrified to learn that productive and loving 
members of their community were murdered in their holy place, 
their inner sanctum, their designated place to commune with 
God.
    All of us have something to gain from those who look 
different, pray differently, and may come from a different 
place. And we must not wait until tragedy strikes, again and 
again and again, to learn the value of mutual respect. We must 
seize every opportunity to denounce hate-motivated violence, 
and in doing so we protect the value of freedom of expression, 
the hallmark of democracy. To have one's voice heard is the 
hallmark of human dignity and the very lifeblood of democracy.
    This is why I count it an honor to serve as a commissioner 
of the United States Helsinki Commission, and to work within 
the tenets of the Helsinki Final Act, undergirded by principles 
of human rights and democracy of the 57 countries that make up 
the region of the Organization for Security and Cooperation in 
Europe. And I have spent my entire career advocating for 
policies, programs, and services that prioritize tolerance and 
inclusion. And I've led my fellow members in protests here in 
the very halls of Congress that have raised global awareness 
for victims of terror. I've introduced resolutions to recognize 
the crisis of intolerant violence against Native women. And one 
of the most prolific and influential religious actors of our 
time famously said--and that would be the Reverend Dr. Martin 
Luther King, Jr.--that darkness cannot drive out darkness. Only 
light can do that. Hate cannot drive out hate. Only love can do 
that.
    So let us use this truth as we examine the role of 
religious actors. You know, we're politicians. But the role of 
religious actors is embedded in the history of this country and 
around the world. And I am led to believe that it is time for 
the religious community to take its historic place in the 
forefront for the march of justice. And let us firmly use love 
and responsible policy to develop policies that will save lives 
and protect human rights. I am most grateful to the 
Wisconsinites that I represent for the privilege to be here 
today. And they're a shining example of how to rebuild a 
community after a vicious and senseless attack on a community--
those folks I speak of in Oak Creek.
    And I want to thank Rabbi Myers of the Tree of Life 
Synagogue and Imam Fouda for participating in today's hearings, 
as their communities, like my own, have also personally been 
touched by tragedy. And I want to thank the religious and 
faith-based leaders who have joined us here today for the 
solidarity they are showing in coming here, and for displaying 
the true strength it takes to remain resilient in the face of 
hate.
    I am going to yield to Senator Cardin for an opening 
statement, if you would like.
    You're always so soft-spoken on these issues. [Laughter.] 
Thought we would give you an opportunity to speak out for a 
change. [Laughter.]

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, Chairwoman Moore, thank you very much for 
your leadership, and to Congressman Hudson. The three of us 
were in Luxembourg recently for the OSCE Parliamentary 
Assembly. So we've had a chance to be together to talk about 
the rise of hate. I particularly want to thank the leadership 
in the House for holding this hearing, ``Responding to Hate: 
The Role of Religious Actors.'' As Congresswoman Moore pointed 
out, I am the Special Representative on Anti-Semitism, Racism, 
and Intolerance within the OSCE Parliamentary Assembly.
    We've seen such a rise of hate in America, the OSCE region, 
and around the world. And we've seen that, unfortunately, in 
houses of prayer, from Pittsburgh to Poway, Christchurch, 
Colombo, black churches in the South--we've seen violence when 
people go to pray, innocent people being murdered.
    At the OSCE Parliamentary Assembly I hosted a side event. I 
want to thank Mischa Thompson, the staff person from the 
Helsinki Commission, for the extraordinary work that she's 
done, not just here in America but around the world to deal 
with these issues. Our side event was on ``Countering Hate: 
Lessons Learned from the Past, Leadership for the Future.''
    We started with Dr. Erbelding of the U.S. Holocaust 
Memorial Museum. And she gave, I think, a rather sobering 
presentation. I had heard it once before, because I am a member 
of the U.S. Holocaust Memorial Museum board. And she told us 
about the seeds of hate and where it can lead to. You know, bad 
people exist. But they can't do their evil agenda unless they 
have popular support. And we saw that leading up to World War 
II. And we saw the consequences of that. Now, I'm not trying to 
tell you that we are in the same vulnerable position today as 
we were before World War II. But many of the same situations 
that existed then are existing today.
    And we need to deal with that. We just can't ignore those 
actions. I said after the tragedy in Pittsburgh, words have 
consequences. Public discourse that stokes fear and sharpens 
grievances is not public policy debate, it is not problem 
solving. Leaders must be held accountable for ending hate in 
our community by their deeds and words. We must demonstrate 
through our actions and through our words that our society is 
stronger when we stand together united against hate.
    So as leaders, we have a responsibility to develop an 
action plan to deal with what we see in our community, in the 
OSCE region, and around the world. Yes, we have to start with 
making sure people are safe in our community. And we have to 
work with religious leaders to make sure people are comfortable 
going to their houses of prayer being safe. We need to invest 
in education. To me, education is the most important investment 
we can to--so people understand the strength of diversity. We 
need laws in place that make it clear we won't tolerate hate 
crimes. And we need to build coalitions.
    I see a great coalition in front of me, this panel. We 
can't do this as Jews, or Muslims, or Christians. We really 
need to do it together, if we're going to be effective in 
countering the rise of hate. Coalition building is so 
important. We need to share best practices, what works in our 
community. So, Madam Chair, I want to welcome all four of our 
panelists.
    Rabbi Myers, I decided to go to University of Pittsburgh 
because of the strength of the Jewish community there. My 
parents thought I would be safe. And I remember being welcomed 
in Squirrel Hill, and the importance of that to me as a young 
student at the University of Pittsburgh.
    And to Radia, we had a chance when I was in Paris just 
recently to meet with the Coexisters. What an incredible group 
that you have brought together. And I'm going to share a 
question I asked and your answer. When I talked about what 
obstacles do you face, and one of the obstacles you faced were 
your own parents who were concerned about you joining together 
in company.
    And to Reverend Jenkins, thank you for your leadership. To 
Ms. Ghazi, thank you for leadership on these issues. We 
appreciate all four of you being here and sharing your 
experiences so that we can help develop an action plan to stem 
this tide, to work together, as the chairman said, for peace, 
and love, and people being respected, and recognizing diversity 
our strength.
    Thank you, Madam Chair.
    Ms. Moore. And thank you. Always on point, Senator Cardin.
    And so let's proceed with this hearing. And we are so 
privileged to first hear from--[offside conversation]. We are 
not ignoring Representative Hudson. [Laughter.] He says he 
would much rather hear from our witnesses. But most of us--I 
mean, this is decrying the role that legislators have. They 
love to hear themselves talk.
    But anyway, we are really blessed to hear from the 
Reverend--I bet you--I've started introducing the Reverend 
James Martin, Society of Jesus, for the third time. So we are 
really excited to hear from him. He's a Jesuit priest, author, 
editor at large of America magazine, and consulter to the 
Vatican's dicastery for communication.
    Father Martin is the author of many books, including The 
New York Times bestseller, ``Jesus: A Pilgrimage'' and ``The 
Jesuit Guide to Almost Everything.'' His most recent book is 
``Building a Bridge,'' about how the Catholic church can reach 
out more compassionately to LGBT Catholics.
    He has appeared on all major media outlets, both nationally 
and internationally, speaking on issues of religion and 
spirituality, and has written for, among many other places, The 
New York Times and The Wall Street Journal. Before entering the 
Jesuits, Father Martin graduated from the University of 
Pennsylvania's Wharton School of Business and worked in 
corporate America for several years. We do welcome Reverend 
James Martin via video.

     FATHER JAMES MARTIN, EDITOR AT LARGE, AMERICA MAGAZINE

    Fr. Martin. Medical treatments prevent me from joining you 
in person, but it's really a great honor to be with you.
    On June 12th, 2016, 49 people at Pulse, a nightclub that 
attracted a largely LGBT clientele in Orlando, Florida, were 
shot and killed at what was at the time the largest mass 
shooting in U.S. history. In response, there was an outpouring 
of love and support for the LGBT community from almost every 
quarter in the country. One notable exception was the Catholic 
church, my own church.
    While the U.S. Conference of Catholic Bishops issued a 
brief, four-line statement, the words ``gay'' or ``LGBT'' were 
absent from it. As a thought experiment, imagine if 49 people 
from a particular ethnic group were massacred, and the name of 
that ethnic group was omitted from public statements. Moreover, 
in the wake of the U.S. bishops' statement, only a handful of 
individual Catholic bishops expressed any sympathy at all. The 
vast majority said absolutely nothing. Even in death, the LGBT 
community remains invisible to much of the church.
    The Catholic church's difficulty in ministering to and even 
trying to understand LGBT people has led to Catholic magazines 
and websites that vilify them, priests who single them out in 
homilies as the world's worst sinners, and even statements from 
cardinals, archbishops, and bishops overseas siding with 
repressive anti-gay laws that provide for the arrest, and even 
execution, of gay men and women.
    Why am I bringing this up? Because when it comes to the 
role that religious actors and organizations can play in 
combating hate crimes, the most effective thing they can do is 
to get their own houses of worship in order. Racism, sexism, 
and homophobia still exist in many Christian denominations--my 
own included. To turn to racism, we only need to recall the 
Reverend Dr. Martin Luther King's trenchant comment that the 
most segregated hour of the week is 11 on Sunday morning.
    Last year, an African American friend of mine, a national 
leader in the U.S. Catholic church, told me a story. Recently, 
he was attending a conference at a town far from his home. When 
Sunday came, he searched for a Catholic church near his hotel 
so that he could attend Sunday mass. Happily, he located one, 
drove there, and entered the church. After my friend passed 
through the church doors a priest, seeing a large dark-skinned 
man, came up to him and said: I'm sorry, you do know that this 
is Catholic church, don't you? Yes, said my friend, do you know 
that this is a Catholic church? [Laughter.]
    The racism, sexism, and homophobia, still endemic in some 
Christian churches, leads to casually racist, sexist, and 
homophobic comments from the pulpit, as well as overtly racist, 
sexist, and homophobic comments made in private. Both give a 
silent blessing to more racism, sexism, and homophobia among 
Christians. Just this month, an influential far-right Catholic 
website published an article that opposed even gay-straight 
alliances in schools as part of what they call their war 
against LGBT propaganda.
    What does such tacit support for prejudice by church 
leaders end up doing? It excuses hate. It fosters hate. It 
blesses hate. And it unintentionally encourages the violence 
that this hate leads to. And make no mistake, some Catholics 
who treat LGBT people with contempt think they are doing so 
with the church's blessing. Thus, these people think they're 
being prophetic. They don't see themselves as haters. They see 
themselves as prophets, because they feel the support of their 
churches.
    Now, this is not to say that all or even most Christian 
churches are places of racism, sexism, or homophobia. By no 
means. Often it is Christian groups that lead the fight against 
hatred. Witness, obviously, the example of Reverend King in the 
civil rights movement, a true prophet whose main impetus was an 
overtly Christian one. In our own day, I'm proud that the 
Catholic church in this country has consistently stood up 
against the vilification of refugees and migrants, perhaps the 
newest victims of hatred.
    But any actions or speeches that mock, stigmatize, 
dehumanize, or otherwise target specific persons or groups of 
people is completely opposed to the Christian worldview. Why? 
Because it legitimizes seeing a person who is different as the 
``other.'' And this is completely antithetical to the actions 
of the Jesus who we encounter in the gospels. In fact, Jesus 
reached out first and foremost to those who were seen as 
``other'' in his time--women, tax collectors, prostitutes, 
Samaritans, Roman centurions, people who were sick, and on, and 
on, and on. Jesus is always bringing those on the outside in. 
He brings the outsider into his circle of friendship because, 
for Jesus, there is no us and them. There is only us.
    So the most important thing that religious actors and 
organizations can do to combat hate crimes is not only to fight 
the hatred on the outside, but on the inside as well. How? 
First, by taking a clear look at how their organizations speak 
of and minister to members of marginalized groups. Second, by 
reaching out to these groups specifically to make them feel 
welcome to what are, after all, their churches too. Finally, by 
taking every opportunity to stand with them publicly, to 
advocate for them, to fight for them--even at the risk of 
losing some parishioners. Overall, they must remind their own 
communities, and the world, that for Jesus, and therefore for 
all Christians, there is no us and them. There is only us.
    Thank you very much.
    Ms. Moore. That was very compelling. Really important 
voice.
    Also, we're sharing these videos because we do think that 
this hearing would not be complete without hearing these 
voices. And that being said, I want to proudly introduce the 
video of Imam Gamal Fouda, of Al Noor Mosque, who survived the 
Christchurch attack on the Al Noor Mosque in New Zealand. And 
so, let's go.

             IMAM GAMAL FOUDA, IMAM, AL NOOR MOSQUE

    Imam Fouda. [Speaks in Arabic, then continues in English.] 
May the peace and blessings be upon our prophet and all the 
prophets of God from Adam and Mohammad, peace be upon them all.
    Thank you very much for inviting me tonight to address your 
community and your members. I do much appreciate. And I just--
first of all, I would like to ask Allah to put the martyrs in 
paradise--the highest place in paradise, those who lost their 
lives in the terrorist--in the terror attack in Christchurch 
mosque. May Allah--[inaudible]--put them in--[inaudible]--
recovery to those injured.
    First of all, I would like to say that that was something 
that no one wants to see. When you see people being killed in 
front of you, it is something that is--I will never forget in 
my life. People came for peace, came for love, to learn love, 
and to actually learn how to spread this love to the people 
around them, to their family members, and to the people in the 
neighborhood who actually stood beside us, and they supported 
us. They supported people, their neighbors. The medical team, 
the police, the government--it was really, really a good image 
of us standing together.
    The power that actually came to us from the people around 
the world, and especially in New Zealand and in Christchurch, 
was actually the secret of us coming back the next Friday. And 
I stood in Hagley Park, and I addressed the people that love 
only will redeem us. And hate will never divide us. We stood 
together quickly.
    And that is the power of New Zealand, that New Zealand set 
a good example to the whole world, how to actually look after 
your people, how to actually support all your people. And we 
always stand together against hate, and hate speech, and hate 
crimes. That is the secret of New Zealand, that the New Zealand 
people, and Muslims, and the Muslim community, they stand for 
peace, they stand for care, and love toward each other.
    And you can see that in the power of the leadership. And 
you have seen the Prime Minister who stood together--stood 
against hatred. And she said that was one of the black days of 
New Zealand. That is the power that all communities, all 
governments should work with each other against hate crimes, 
especially on social media. That social media should be a 
useful tool for all of us, not a tool of brainwashing young 
people.
    And also the Minister of Education around the world, all 
your educators, you need to implant the critical thinking in 
our children so that they know that they have to have their own 
self. They should not be listening and should be followers of 
people. They should have their own views. And they question 
everything around them, including hate speech on social media.
    And all of us have to condemn hate speech everywhere. And 
we have to teach in our mosques, in our churches, in our 
synagogues, and all worshiping places. We have to teach love, 
and how to actually teach our children to see people of 
different color as something that is really beautiful to all. 
We have to stand together against hatred and against terrorism 
around the world. All the people who claim--who are terrorizing 
people, and they spread hatred around the world--whether their 
religion is Islam, or Christianity, or Judaism, or faith, or no 
faith. Terrorism has no religion.
    And we have to stand together, looking at the diversity in 
our communities as something that is strengthening our 
community. It is the secret of the power of our community to 
see different colors, different languages.
    Thank you very much for inviting me today to speak to you. 
And I have lots of other things to say, but because of the time 
I will finish up. Thank you very much.
    Ms. Moore. And thank you.
    And before we proceed with the hearing, I am so delighted 
that we've been joined by our friend and colleague, another 
Helsinki Commissioner, who hails from Memphis, Tennessee, a 
member of the Judiciary Committee, very active in the Helsinki 
Commission. And that is Representative Steve Cohen.
    Good morning.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you. Sorry about being late. I had a 
meeting. But this is an important meeting, and I value the work 
on the Helsinki Commission. And I look forward to your 
testimony.
    And hearing what I did hear on these broadcasts, religion 
can be a wonderful source of life values and spirituality that 
we share in common. Memphis is a city of many ministers, many 
outstanding ministers and rabbis. My rabbi, Micah Greenstein, 
was on the NAACP board, of which I was very proud. One of his 
predecessors, Rabbi James Wax, stood up to the only onetime 
Jewish mayor of Memphis, Henry Loeb, and told him that God's 
law was more important and that he should have worked with Dr. 
King, and seen to it that they were able to march and bring the 
sanitation workers the salaries and benefits and wages they 
deserved. There have been others. And the leaders in Memphis 
over the years have been Methodist ministers, Catholics, and 
Jews, and others.
    But we all need to take religion and use it for good, and 
the common purposes and common values, and not use it to divide 
us, and not use it to make money, and not use it to suggest 
that the only way is through tithes and givings that enrich 
people who use religion for their own sake.
    So I'm pleased that you all are here, and pleased to 
participate, and nobody's better on all these things than 
Reverend Barber. So I wish he was here too.
    Thank you, I yield back.
    Ms. Moore. Thank you so much, Representative Cohen.
    We are so delighted to be joined by this distinguished 
panel. So I want to start out with Rabbi Hazzan Jeffrey Myers, 
who has served as the rabbi and cantor for the Tree of Life 
Congregation of Pittsburgh since the summer of 2017. Rabbi 
Myers is a survivor of the horrific morning of October 27th, 
2018, when a heavily armed gunman began a murderous rampage in 
the Tree of Life Synagogue. It is so wonderful to have you here 
in person. And my nephew wants to be a cantor. I want to make 
sure he gets in touch with you. You may already know him, 
because he sings in every synagogue everywhere in the world 
that he can.
    But with that, I welcome you, Rabbi Myers, to begin your 
testimony.

  RABBI HAZZAN JEFFREY MYERS, RABBI AND CANTOR, TREE OF LIFE 
                           SYNAGOGUE

    Rabbi Myers. Thank you, Madam Chair, Members of Congress. I 
thank you for the privilege of testifying before you today.
    I am a victim, witness, and survivor of the worst attack in 
a synagogue in the history of the United States, and the Jewish 
community has been present on these shores since 1654. Since 
that fateful day of October 27, 2018, I, the congregants of 
Tree of Life, along with two other congregations that share our 
building, New Light and Dor Hadash, and the city of Pittsburgh 
have been overwhelmed by expressions of love from across the 
planet. People of all faiths, colors, and sexual orientation 
have enveloped us is a vast, global hug that continues 
unabated. Their message is very clear: The acts of one person 
are not representative of all of humanity.
    But, alas, the acts of brutality and cruelty can overwhelm 
us. And when coupled with incessant anti-Semitic words and 
dastardly deeds across the United States and around the world, 
we are reminded almost daily that a pernicious, ancient evil 
flourishes. What most Americans don't know or appreciate is the 
warmth and togetherness that is Pittsburgh. I can state this 
objectively as I too am an immigrant to Pittsburgh, having 
spent most of my life in the New York and New Jersey area. I 
live in Mr. Rogers' neighborhood, and the love and care for 
people of all walks of life in my city post-October 27 were 
typical to prior to this date, only more intense afterwards.
    Religious leaders of all faiths have reached out to me, 
affording me a unique opportunity to get to know them and find 
commonalities where we can work together to better our 
community. The metaphor of America as a melting pot is a 
beautiful image, but sadly it is not true. We do not know our 
neighbors. We live in silos with no bridges connecting them. 
Many choose to live in their own private silos, not wanting 
others to enter their silo. Some people just don't know how to 
build a bridge. This is where religious leaders like me make a 
difference. I am a bridge builder.
    When the Muslim community extended an olive branch to me, I 
responded by offering an olive tree. The same goes for the 
Roman Catholic, various Protestant denominations, the Sikh, 
Buddhist, Jain, Baptist, AME, and so many more that I apologize 
if I have omitted. We have so much in common that we must work 
together. The modest, baby steps that we are taking mature into 
adult steps, hopefully yielding bushels of olives. 
Opportunities to partner with local government and the police 
department continue to grow as well. We can be the Nation's 
laboratory to model actions that may work throughout the 
country, without me minimizing the efforts of those already 
working to achieve these same goals.
    We, as clergy and congregants, are striving to find ways 
beyond visiting each other's worship services to really getting 
to know our neighbors, to consider their needs, and to 
determine how we can work together to realize positive 
outcomes. Please note that this was happening in Pittsburgh 
before October 27th, but this date and the atrocity that it 
brought created a new sense of urgency. We must see to it that 
all children in all schools throughout this country learn about 
their neighbors and strive to understand them in an effort to 
appreciate their faith, not merely tolerate them. We must 
provide the tools for all people to honor and respect their 
neighbors. And right now we as a nation are not being very 
successful in doing this.
    Just 2 weeks after October 27th, the city of Pittsburgh 
held a rally at Point State Park, and I was asked to speak. It 
was here that I made a pledge not to use the word ``hate,'' 
which I will say here only once for demonstrative purposes. The 
H-word, as I call it, is a four-letter word, an obscenity that 
deserves to be in our mental wastebaskets. If you truly must 
say that you H-something, just say you don't like it. H-speech 
is a severe choice of words that often leads to violent 
actions, as was the case in the Tree of Life shootings. When 
you don't understand your neighbor, it can lead to mistrust, 
fear, loathing, and H-speech, which ultimately leads you to 
unconscionable and deadly actions.
    Our Nation right now is suffering an epidemic of uncivil 
discourse. People cannot hold civil conversations with their 
neighbors, be it in person or through social media. As our 
elected leaders, I call you to task for this epidemic. When you 
use H-speech against one another, you model uncivil discourse 
for all Americans. As our leaders, you are teaching us that it 
is acceptable to behave this way--and it's simply not. Is it 
any wonder that my fellow citizens speak in uncivil terms and 
use H-speech? You condone it and model it. It is time for a 
different direction.
    The path toward civil discourse must start with all of you, 
our elected leaders. When you model civil discourse, you teach 
us appropriate ways to speak to one another. This does not 
require any legislation on your part. It requires you to think 
about the impact of your words for, as the Jewish tradition 
teaches, the most powerful weapon a human being possesses are 
words. They can wound, or they can heal. There is way too much 
wounding emanating out of Washington, DC. Who among you will be 
brave enough to say to the American people: I pledge that I 
will not use the H-word, I call upon my fellow legislators to 
do the same, to help restore civil discourse in America? Our 
eyes and ears turn to you. What will you do?
    I thank you for your time and attention.
    Ms. Moore. Thank you so much for that, Rabbi. Thank you so 
much for sending us on a path of thinking. And we're--I'm going 
to engage you on just that during the Q&A period.
    But right now, we are really fortunate to have a young 
person. We've had the sage wisdom of our elders here, but it is 
always--you always know you have a movement going when its 
intergenerational.
    And so we're really happy to have Radia Bakkouch here, 
who's the president of Coexister in France. It's an interfaith 
youth-led movement that offers young people the experience of 
diversity in a positive way. Radia is specializing in 
peacebuilding, youth empowerment, and conflict transformation.
    And before I yield to you, I just want to introduce a very 
active member of the Helsinki Commission, Sheila Jackson Lee, 
who is a member of the Judiciary Committee and--a senior member 
of the Judiciary Committee--and, of course, she hails from 
Houston, Texas. I want to yield to Representative Sheila 
Jackson Lee for just a moment.

 HON. SHEILA JACKSON LEE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Ms. Jackson Lee. You're very kind. And I thank you for your 
courtesy, and to acknowledge my delay. It was because I was in 
the Judiciary Committee speaking about incarcerated persons. So 
I will be very focused by saying to you that I am a strong 
advocate, as this commission would suggest, of religious 
liberty, religious freedoms, and the restoration of such. And I 
think that that is one of our highest responsibilities in this 
commission, and we look forward to hearing from you to be more 
energized on these issues.
    I'd conclude by saying at an earlier meeting I had with the 
Tom Lantos Human Rights Commission, we were talking about the 
conditions in the Syrian refugee camps. All of this ties 
together where people are oppressed, and our voices and our 
deeds should work to relieve them of their burdens. With that, 
I yield back to the gentlelady.
    Thank you.
    Ms. Moore. Thank you so much, Representative Jackson Lee. 
We've had numbers of members come in and out as our schedules 
are busy. But as you all can see this is extremely important. 
And members are leaning into it, despite other compelling work 
that's here.
    And so with that, Radia, we are eager to hear from you.

              RADIA BAKKOUCH, PRESIDENT, COEXISTER

    Ms. Bakkouch. I would like to thank the Members of the 
Congress and the Commission on Security and Cooperation in 
Europe for inviting me to testify at this hearing. My name is 
Radia Bakkouch. I'm 27 years old, and I've been the president 
of Coexister, a European interfaith youth movement, for 4 years 
now. I represent thousands of young people, of members of 
Coexister. And we are really proud and honored to be heard 
today.
    So in France, and in Europe, there is a complex 
relationship with otherness and with understanding differences. 
While the overall trend leans toward uniformity of cultural 
practices, spiritual and religious identity resists this 
mechanism of standardization, and symbolizes taboo, fear, and 
ignorance. Unfortunately, hate crimes motivated by religious 
bias only comes second in number behind racially motivated 
crimes in Europe. For instance, in France, in 2018 the number 
of anti-Semitic attacks in France rose by 74 percent. In the 
past 10 years, like in Montauban and Toulouse in 2012, in Paris 
and its northern suburb, in Saint-Denis, in 2015, in a church 
in Saint Etienne du Rouvray in 2016, people were killed because 
of their religion and people killed in the name of their 
religion.
    So if faith can be at the heart of tensions, for us in 
Coexister it can also be at the heart of the solutions. 
Coexister is a youth-led interfaith organization. We gather 
Jews, Christians, Muslims, atheists, agnostic, and Buddhists 
from 15 to 35 years old. And within our organization we believe 
in the concept of the ``faith for good,'' and in the practice 
of interfaith cooperation. In 52 European cities, Coexister has 
offered 10,000 young people the opportunity to experience 
interfaith diversity in a good way and has helped more than 
120,000 students to tackle stereotypes based on beliefs.
    We empower young people and give them the skills, the 
opportunities, and the relationships they need to build peace 
and prevent any type of violence and exclusions. We offer them 
safe space, where they can be fully themselves with others who 
are completely different from them, and tools also so they can 
act together for social justice, inclusion, mutual respect, and 
peace.
    So what are our recommendations? Thousands of interfaith 
initiatives and practices exist around the world. The United 
Religions Initiative Network, of which we are a part of, alone 
already supports and connects more than 1,000 initiatives in 
108 countries. Yet, in order to maximize their outreach and 
systemic impact, they have to be state supported.
    So, the first recommendation would be to defend pluralistic 
societies. We need to defend, protect, and promote a 
pluralistic society. Citizens can prevent hate against 
diversity if they are able to face diversity in their daily 
life. Multiculturalism and communitarianism are not the only 
way to apprehend diversity in society. We need a mix.
    The second recommendation would be to support ``faith for 
good.'' Faith is a specific part of the identity, which is 
substantial, chosen, and can be a source of bad and good. 
Everyone has faith in something. It's not the prerogative of 
religions only. Linking the spiritual resources to actions 
toward peacebuilding and social justice strengthen the actions.
    The third recommendation would be to practice interfaith 
cooperation. Faith for good is even stronger when it's used in 
interfaith cooperation, by bringing people that deeply disagree 
on their faith together, so that they can act together. We need 
to acknowledge that cooperating with people who are different 
requires time, practice, and willingness.
    We need to restore the importance of relationships. And, I 
would say, more than relationships, friendship. We need also 
for a recommendation to come out of the communitarian 
struggles. It is important that not only Jewish people fight 
against anti-Semitism, not only Muslim people fight against 
anti-Muslim attacks and Islamophobia. We need to acknowledge 
all type of hate crimes that target a particular population and 
engage everyone so they can feel concern when any and all hate 
crimes happen.
    The fifth recommendation would be to fight ``for,'' rather 
than to fight ``against.'' Fighting against hate is important, 
but fighting for peace is vital. Our purpose should not only be 
to diminish hate, but we need to envision what our ideal 
society looks like. Nonviolence is a prerequisite, but 
tolerance is not enough. And we say usually in Coexister that 
we are not a tolerant organization. We do more. We do 
acceptance. We do mutual understanding. We need to defend a 
society where active coexistence is the method for 
relationship.
    We need--as the last recommendation--we need to also 
include other actors in the fight against hate. It's really 
important that religious actors--and I have some on my table--
engage in the fight against hate crimes. But also, if you can 
influence the response to hate, citizens and young people are 
also a great lever to do so. We usually include young people 
when we talk about the future, but young people are the 
citizens of today and they need to be included today to face 
the challenges of our society.
    Responding to hate by using faith and religious tools can 
be efficient and lead to a lasting peace. In Coexister, our 
founding intention is that peace must be taught, experimented, 
and be a process of consciousness. We need to learn peace, not 
learn how to make peace, because it will mean that we cannot 
prevent the conflict. We learn--we have to learn and cherish 
the actual peace. We would like to make peace a major learning 
discipline in all informal and formal educational policies 
throughout the world.
    Thank you very much.
    Ms. Moore. Just more than we expected, Radia. I can feel 
the energy up here on the dais just listening to you. We need 
to teach peace and learn peace. We can't just expect it to 
evolve.
    Before we hear from our next distinguished speaker, I just 
want to note the arrival of one of our newest commissioners, 
Representative Brian Fitzpatrick, from the great State of 
Pennsylvania. He's a member of the Committee on Foreign 
Affairs, and also on the Committee on Transportation and 
Infrastructure. Welcome and thank you. And, again, as you can 
see, members are attending this hearing, you know, consistent 
with their busy schedules, because this is probably the most 
important theme that we can lean into right now, during this 
period of our--of our democracy, not only here but across 
Europe.
    I'm very excited to hear from the very Reverend Aaron 
Jenkins, who is an ordained Christian minister, and serves as 
vice president of the Abrahamson Scholarship Foundation, an 
education nonprofit organization in Washington, DC, that 
provides scholarships and mentoring support to first-generation 
college students for all 4 years of their undergraduate 
education. But Reverend Aaron Jenkins is also the vice 
president of policy and advocacy for The Expectations Project. 
It's a national nonprofit organization that educates and trains 
faith-motivated advocates to help eliminate educational 
inequality in public schools. And prior to this adventure, he 
served as the director of the White House Center for Faith-
Based and Neighborhood Partnerships under the Obama regime.
    So, Reverend Aaron Jenkins, you can just leave your tie 
right there on the desk for me to gather up after we leave, 
after you're done with your presentation. You just leave that 
tie right there.

REVEREND AARON JENKINS, VICE PRESIDENT OF POLICY AND ADVOCACY, 
                    THE EXPECTATIONS PROJECT

    Rev. Jenkins. I'll be happy to do so. Nelson Mandela can be 
left in your capable hands. [Laughter.]
    It's a pleasure to testify before you this morning, to the 
distinguished gathering of congressional leaders, to my 
colleagues and co-panelists. I'm grateful to be here. What 
brought me here was not only the invitation to come, but it was 
what happened on June 17th, 2015, when Pastor Clementa Pinckney 
was teaching Bible study and a young man walked into the church 
at Mother Emanuel in South Carolina, and asked: Where is the 
pastor, because I want to sit beside him?
    And after listening to Bible study, and after sitting 
amongst people who were attempting to live principles of all of 
our faith traditions, of loving others as they want to be 
loved, we would see a crime that would take the lives of 
Cynthia Marie Graham Hurd, Susie Jackson, Ethel Lee Lance, 
Depayne Middleton-Doctor, Tywanza Sanders, Daniel L. Simmons, 
Sharonda Coleman-Singleton, Myra Thompson--also known as the 
Charleston nine. What happened that day would be vilified and 
go down in our history, just like the bombing of the four 
little girls in Birmingham, Alabama. But what was powerful is 
what took place several days later at a very routine hearing, 
when a judge said: I want to give the families a chance to 
speak, and several families said: We forgive you.
    The title of our hearing today, ``Responding to Hate: The 
Role of Religious Actors,'' stirred something in me, because I 
wondered, what does it not only look like to respond to hate 
crimes, but what are the ways that we can be proactive in 
preventing them in the first place? Working with young people 
in a program called Operation Understanding D.C., I spent 7 
years educating Jewish, Christian and Muslim students of the 
African American and Jewish tradition of what would it look 
like to see the world and make the world that you would like to 
see? Often as an educator and those who know how education 
works, you have to give young people a goal that exceeds their 
grasp, because that's what gets them excited to reach for the 
goal.
    And I think one of the goals that I have personally is to 
see an end to hate crimes, but more so than that, to see a 
transformation of communities through three important things 
that they need: partnership, resources, and relationships. It 
was in Operation Understanding D.C. that I saw the power of 
partnership, going to Memphis, Tennessee and having Rabbi Micah 
Greenstein inform my students with 18 powerful words. In the 
Jewish tradition, 18, l'chai, means life. And he would say to 
them: Do the most that you can, in the place where you are, 
with the time that you have. And those 18 words, for the last 
25 years, have stirred young people to go wherever they're 
planted to do just that.
    I'll tell you, when hate crimes take place what they do 
inside of me is that, just like that crime at Mother Emanuel 
Church, just like the crime at Tree of Life, it made me think: 
What would I have done if I were there? And then an even better 
question is, What could we do to prevent that from happening in 
the first place? One of my mentors once told me that thoughts 
become things, that it's the thoughts that we have that become 
the things that we do. So how do we become interrupters of 
hateful thoughts? How do we become interrupters of ignorance? 
And I know that one of the powerful ways that's already been 
mentioned is education.
    As I sit with my sister to the right, Ms. Usra Ghazi, we 
have already worked together, even before being called here. 
We've worked together as Christian and Muslim, seeking ways for 
young adults and young leaders to find solutions to the 
problems that we have. We see goals that exceed our grasp, and 
we reach for them. With the power of partnership here in 
Washington, DC. as a clergy member, I walk in communities that 
have experienced gun violence. And I ask the neighbors who have 
seen that happen two questions: How can we help, and what do 
you need? And oftentimes if we trust community in partnership 
they will tell us what they need.
    One young man said: We need resources. We need a place for 
our children to play. We need safety. That is what we need 
here. And I wonder, applying it to this commission, which has 
reach across Europe and across oceans, I wonder and think out 
loud with you: What are the places and ways that we can be 
reactive--excuse me--what are the ways that we can be proactive 
instead of reactive?
    The power of partnership means that I walk into a 
synagogue, I walk into a mosque, I walk into a Buddhist temple, 
invited in and learn the traditions that are there, and they 
become important to me. Not taking away from my Christian 
identity, but actually empowering it. I believe in partnership.
    The second thing I believe in is the power of relationship. 
I've been told that the relational is transformational, and I 
believe that. Working in the Obama administration as the 
director for the Center for Faith-Based and Neighborhood 
Partnerships, I watched the power of relationship that when 
people are in need, and people have the resources that are 
needed to help them, it's the relationship that makes you pick 
up the phone, that makes you get out of bed, that makes you go 
to see what is the best that we can do for them.
    I remember after the Tree of Life Synagogue shooting being 
invited to Adas Israel, where leaders from D.C., Maryland, and 
Virginia gathered in response to the hate crime. But the most 
powerful moment of that--of that visit was actually what took 
place outside, when there were more people outside who gathered 
together in solidarity with Pittsburgh, and hate crimes that 
had taken place all over, than could fit into the shul. And 
what happened next was powerful. Imam Johari Abdul-Malik, 
formerly of the Dar Al Hijrah Mosque here in Virginia, a local 
friend and clergy member in the Islamic faith, was asked to go 
outside and speak.
    And he said: Let me start by speaking words of peace. Salam 
is peace in Arabic. Shalom is peace in Hebrew. And peace is 
peace in English. [Laughs.] By speaking those words, he 
reminded me that partnerships matter, but relationships are 
critical if we're going to see a change of goals that exceed 
our grasp.
    The last thing I'll share is the importance of investment, 
training, and resources. What happens if we want to dismantle 
the impact of hate crimes is that faith communities are 
strategically placed in communities not only across the United 
States, but across the world, where if they are invested in 
properly they not only can do the work in their individual 
congregations but across faith communities as well, to make 
sure they are resourced and prepared to not only react when 
something happens of the H-word, as I've been told and will now 
adopt into my language, but they can be proactive in being 
instruments of peace where they are.
    I've wondered, what would it look like for this committee 
to empower communities through investment in training and 
resources, such as things like sustained dialogue and things 
that we know that work when they're done consistently? I wonder 
what would happen if we took the time to listen to the needs of 
communities to make sure that they get what they need.
    There's an African proverb that says: If you want to go 
fast, you go alone. But if you want to go far, you must go 
together. And I look forward to dialogue together with those of 
us gathered of thinking and discussing ways that we can go 
together toward peace and away from things such as H.
    Thank you.
    Ms. Moore. We do want to thank you so much. Partnership, 
resources, and relationships.
    Before we hear from our last, but not least, guest, I do 
want to recognize Representative Fitzpatrick, and see if he has 
any comments or remarks to make. Thank you for joining us.

 HON. BRIAN FITZPATRICK, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Fitzpatrick. Thank you, Madam Chair. No, I appreciate 
the invitation to be here. Thank you for sharing your stories. 
This is a very, very important, very timely discussion. As the 
reverend indicated, the biggest threat that faces our country, 
as challenging of propositions as we have with regard to health 
care, and energy policy, and so many things we deal with, I 
believe the biggest threat facing our Nation is the way that we 
talk to each other. And that is in every facet of our lives. 
The lack of civility, I think, is the biggest threat facing our 
country. The existence of hate is the biggest threat facing our 
country. So honored to be a part of this today.
    Thank you.
    Ms. Moore. Thank you. Are we having a--I--[laughter]--I 
really want to introduce our last speaker, someone who appears 
to be very, very young but she's worked for over a decade 
across the United States. She's a senior fellow for religious 
freedom at the Newseum's Freedom Forum Institute. She's been a 
commissioner on D.C.--or, is a commissioner on D.C. Mayor 
Muriel Bowser's Interfaith Council. She's worked at the U.S. 
Department of State as a policy advisor and Franklin fellow.
    She's worked for the city of Boston in the mayor's office 
for immigrant advancement, holds a master's degree from Harvard 
Divinity School in religion and politics. And we don't have 
time for me to read all of her credentials, but we're happy to 
welcome Usra Ghazi as an expert on this subject. And we are 
going to yield to you now. And I see that you've already 
collaborated with one of our panelists. So if we just sort of 
move seats around here, we'll have this thing all solved by the 
end of this hearing.

     USRA GHAZI, DIRECTOR OF POLICY AND PROGRAMS, AMERICA 
                          INDIVISIBLE

    Ms. Ghazi. Sounds like a plan. Madam Chair, distinguished 
members of the commission, thank you for inviting me to speak 
today. The issue of hate crimes in the United States and 
specifically those targeting religious minorities is one of 
growing national concern. At America Indivisible, where I work, 
we are primarily focused on the issue of racialized anti-Muslim 
bigotry and the ways that it impacts communities who are 
perceived to be Muslim, which may include Arab, black, Sikh, 
and South Asian Americans. As a coalition-based organization, 
we partner across communities to identify solutions that 
strengthen relationships between bigotry-impacted communities 
and their neighbors, and local government representatives.
    One very critical way that religious actors are responding 
to hate crimes and discrimination is to build more effective 
ways to monitor and report on these events. Federal hate crime 
statistics consistently underreport hate incidences for many 
reasons, including a lack of standardized reporting processes 
for all states and also due to strained relationships between 
bigotry-impacted communities and law enforcement entities. In 
my own conversations with Muslim, Arab, and Sikh communities 
impacted by anti-Muslim vandalism, bias, and hate, many have 
expressed a desire to keep their heads down rather than 
reporting these events to law enforcement agencies.
    Despite this challenge, Sikh, Muslim, Arab, South Asian, 
and religious communities of color are increasingly 
coordinating events themed ``Know Your Rights'' workshops and 
meeting with law enforcement officials within their houses of 
worship and community centers. Religious and civic leaders do 
this work with great risk to their community reputations. Those 
who choose to engage with such agencies risk being attacked for 
cooperating with a government whose chief executive antagonizes 
Muslims and other marginalized groups in his rhetoric and 
policies.
    And so this takes me to my second point, about the 
proactive ways that religious actors are responding to hate. 
Due especially to the rise of hate crimes and hate speech 
against Muslim and Sikh Americans, these communities by 
necessity have had to organize outreach efforts to humanize 
themselves, while raising cultural and religious literacy among 
their neighbors and government representatives. These range 
from events themed ``Meet a Muslim'' or ``Wear a Turban Day,'' 
to working with media and entertainment industry officials 
about misrepresentation of these groups in their media content, 
in addition to working with social media companies.
    These communities are also building their civic health, 
getting more involved in elections, and running for office at 
record rates. We now have Muslim and Sikh mayors of American 
cities, as well as officials from these faiths in a range of 
governmental positions. These efforts help to ensure that our 
cities, counties and states are truly representative of the 
rich diversity of American communities. At America Indivisible 
we work with officials in city, state, and county-level 
governments to help grow their cultural and religious literacy, 
while building the civic health of bigotry-impacted 
communities. Developing effective ways to track and report on 
hate crimes is absolutely critical.
    But it is also one step too late. Social science research 
proves that when diverse communities have strong associational 
ties, like working together on community projects, they are 
much more resilient in times of conflict. Our hope for the 
future is that more mayors, governors, and county officials 
will recognize the many ways that religious actors are 
contributing to civic health--to the civic health of their 
neighborhoods. We would like to see more of these officials, 
including you all, visiting their local mosques or temples. Our 
communities have been shaping the social fabric of America as 
small business owners and professionals, as educators, or 
officers in the armed forces for decades and, in some cases, 
generations. One sure-fire way to prevent hate and build 
inclusion is to recognize these contributions and invest in 
these communities' civic health.
    Thank you.
    Ms. Moore. Thank you. Thank you so very, very much.
    We are going to now have a period of questions. And I will 
defer to my colleagues here and allow them to ask questions 
first. I don't--usually the chair asks questions first, but I'm 
not going to do it that way. I'm going to yield now to my 
colleague, Representative Sheila Jackson Lee, because I don't 
want to lose people and have them miss the opportunity to ask 
you questions.
    So, Representative Sheila Jackson Lee, I'm going to yield 
to you to question our distinguished panel at this time.
    Ms. Jackson Lee. Let me thank you so very much. And let me, 
with a brief commentary as I express my commitment to religious 
liberty, let me either counter that or frame that in the 
context of those who are the brunt of hate. They should have 
the right to practice faith and individuals who are without 
faith should be left to their own rights and privileges, and 
not be brutalized, killed, in essence chased from their home, 
that I've seen across the world. It is also quite obvious in 
many of the conflicts around the world that it is conflicts on 
the issue of religion. Sadly, people lose their lives in so 
many brutal wars because of faith.
    And Syria in particular now comes to mind in terms of the 
faith of those who are supporting Assad versus those who are 
not. And I would argue that we have to find a way for those of 
us who are in this country and who pride ourselves or claim 
faith as very much a part of our infrastructure to be more 
aggressive, both in our commentary and in our assessment. I 
would not like to say we go to war over religion, but there are 
many suggestions that you all have given.
    So I'd like to just start, from you, Radia, if you don't 
mind me calling you that, and say specifically--and I am 
grateful to be a member of the Helsinki Commission and because 
of the wide breadth of issues, including religious freedoms but 
also religious justice. What biding, main focal point we should 
be advocating legislatively or as a commission to deal with the 
scourge of religious violence and hatred? And I'll just take 
that answer from every member of the panel.
    Ms. Bakkouch. Thank you for this question. I would be very 
concrete, simple, and short. Put more, more, more inclusion and 
religious knowledge, and otherness knowledge in formal and 
informal education. And also, force people to meet with 
diversity. I think one of the biggest problems--like, one of 
the top challenges is that when you never met someone that is 
different from you, of course, when you meet them you can be 
scared. Of course, when you hear all the violence in the media 
or in the public sphere, you can be scared. And fear can lead 
to ignorance. Well, there is ignorance. And fear can lead to 
violence. So force diversity. Force the social mix. Force 
people to meet. Force intercultural exchange. Force interfaith 
exchange. Force people to meet from a state to another. And 
that's also what I'm advocating in France.
    Thank you.
    Ms. Jackson Lee. Rabbi, as I yield to you, we well know 
that what has been said, where people are raised up on hating 
someone else, the different sects of Islam, for example, across 
the huge Islamic community that has brother up against brother, 
if you will, or children, girls, in Afghanistan not being able 
to go to school because of a religious belief--but in any 
event, your thoughts about how we can be more effective.
    Thank you.
    Rabbi Myers. Thank you, Representative. We cannot legislate 
out the H-word. I don't think it's a function of law, because 
we have plenty of laws on the books covering a vast range of 
human behaviors. And as I think we can observe, our prisons are 
filled with way too many people who don't belong there and our 
prisons are punitive. I don't think they're impactful on human 
behavior. For years in the United States we became familiar 
with the acronym STEM education--science, technology, 
engineering, and math. It then grew to STEAM education--
science, technology, engineering, arts, and math.
    I submit to you that we should expand it to make it STREAM 
education, the ``R'' meaning religion. We don't know our 
neighbors. We need to see to it that children in all schools 
across the United States, public and private, learn about their 
neighbors, learn about the wealth and diversity that exists in 
the United States. This is not about parental fear that their 
children might be converted. This is about learning about their 
neighbors to appreciate the wealth and diversity that is the 
United States, because when you know your neighbor you're not 
going to just simply tolerate, because tolerate I don't think 
is sufficient anymore. You can respect and appreciate the 
beauty of your neighbor. So I think we need to move toward 
that.
    I would submit the same thing for first year in college. 
There are plenty of classes that colleges demand. I think this 
same concept of religion is critical because one--again, 
students, many, attend college for the first time and have 
never met the diversity of the United States in the towns that 
they come from, and the towns that they're raised. So they need 
to be able to learn more about their neighbors. So I would 
submit to you that we should find the same thing in colleges, 
public and private, throughout the land.
    Ms. Jackson Lee. Thank you so very much.
    Reverend Jenkins.
    Rev. Jenkins. Thank you, Congresswoman. I appreciate the 
question. And I appreciate your asking for the concrete ways. I 
think--as my colleagues have been saying--I think they're best 
said to be legislative and non-legislative solutions. The 
legislative solutions, as my colleague Ms. Ghazi talked about, 
when you look at the hate crimes that have been reported from 
2015-2017, we've seen an increase every year in the number of 
hate crimes that have taken place. Now, I don't actually know 
if it's an increase in the hate crimes or it's an increase of 
the awareness of hate crimes and people actually reporting 
them. So I think there's some immediate short-term legislative 
solutions that can be built in around things of that nature.
    I think--I believe in the convening power of government. I 
mean, this hearing is a testament to that, that where you sit 
and where the commission sits, not only in America but also 
amongst--practices shared amongst colleagues, the convening 
power of bringing together people of different backgrounds and 
the opportunity for them to provide not only testimony but 
insight as to what works in their communities, what doesn't 
work, and what the problems are. I think models like this 
should be both researched and also brought to scale.
    I know in my own community what has transformed me 
personally has been that expanded exposure from a single-parent 
household in an urban area into being able to come to places 
where I've met people who were not like myself, but also the 
space to learn more about myself. You said something that 
caught my attention. We have those in our communities who are 
ignorant, who have not been exposed. And their ignorance is not 
active; it's passive. It's when it goes from active, to 
passive, to being informed of hate, and hate crimes that we see 
these things take place. And I wonder, again, if we're being 
interrupters and disruptors in that chain, how do we even bring 
in people who may be ignorant and unaware of what should take 
place, and create a space for them?
    So I really believe in the participation within the United 
States of nonprofit organizations, and globally really engaging 
non-governmental organizations. It's been said already that we 
operate in silos. And I really believe the solution to many of 
our problems, not only in our neighborhoods and in our states 
but also in our world, can really come from the communities 
from which those problems start.
    Ms. Jackson Lee. Thank you so very much and thank you for 
your view. Before, Ms. Ghazi, I go to you, let me highlight, I 
think, some positive aspects, chairwoman. And I'm going to 
focus on the African American community, Reverend Jenkins. We 
have mixed marriages. We have AMEs married to Baptists, 
Catholics, Episcopalians, Presbyterians. And I think I must 
boast and brag--Seventh Day Adventists--I must boast and brag 
on the African American community as members of the faith 
community, that even though we live in America and would not 
expect for us to rise up in violence against our neighbor who 
may be a Presbyterian, but still their ability to sort of work 
across faith lines I think is a powerful statement.
    And I think possibly the State Department should find a way 
to use these examples of different faith representatives just 
working together. I think disasters are a perfect example when 
people of faith come together, stand alongside of each other, 
and stand alongside of Muslims, stand alongside of the people 
in--of the Jewish faith, and everybody's lifting buckets 
together. And just in ordinary circumstances in the African 
American community, you're having meetings where we have 
ministers with ministerial alliances. And they're in alliances 
with people from different faith. I think that is a good 
example that responds to a lot of what you've said. There needs 
to be an example that it can happen.
    Now, I know--and some of this hatred is so intense and so 
different from our cultural history. But I think we can do some 
examples. For example, when I've traveled internationally I've 
seen the State Department have jazz artists to show cultural 
music that we have. We should also have the ability to see how 
different faiths work together. And I know that's not the only 
answer, because some of this is extreme violence that we have 
to address. And I think we need to address it with very firm 
responses internationally, the United Nations, with penalties 
for people who use religion to kill, to hurt, and to destroy. 
But I just wanted to raise that.
    Ms. Ghazi.
    Ms. Ghazi. Yes. Thank you, Representative Jackson Lee, for 
this question.
    I would say that the top challenge to addressing hate in 
U.S. society is leadership. We need public leaders and elected 
officials to speak out against hate and build up a social norm 
against hate. We have really lost ground in this effort due to 
failures of leadership at the national level in the past 3 
years. And then to reiterate, the issue of underreporting of 
hate crimes is a serious issue.
    Organizations including the Arab-American Institute have 
conducted comprehensive reviews of policies that track and 
monitor hate and found that the 2016 killing of Khalid Jabara 
in Tulsa, Oklahoma--noted as a high-profile anti-Arab hate 
crime--was not reflected in Federal data. Neither were a number 
of 2017 attacks, including the killing of Heather Heyer during 
the Unite the Right rally in Charlottesville, the killing of 
Srinivas Kuchibhotla, an Indian immigrant shot to death because 
of his perceived national origin, and the bias-motivated 
stabbing of two men in Portland, Oregon.
    So my point here is that we cannot effectively challenge 
hate if we don't have a clear understanding of how often, 
where, and why it happens. And so very briefly, I want to 
mention that last month Members of Congress introduced the 
Khalid Jabara and Heather Heyer National Opposition to Hate 
Assault and Threats to Equality, or NO HATE, Act, and a 
companion bill in the House was introduced. This bill proposes 
funding for state hate crime hotlines, permitting judges to 
mandate that perpetrators undergo community service or 
education focused on the targeted communities, and support law 
enforcement agencies' expansion of prevention, reporting, and 
training programs.
    This bill will support implementation and training for the 
National Incident-Based Reporting Systems for law enforcement 
agencies that are not yet using it, streamlining the reporting 
process. So I want to just reiterate how important it is for us 
to absolutely think critically about our--the legislation that 
can help address hate in the United States.
    Ms. Jackson Lee. Let me thank all the witnesses, Madam 
Chair. And let me look to the NO HATE Act. And as well, work in 
Judiciary on some additional focus on underreporting to 
complement that legislation. And just hear from all of you that 
our energy level, our advocacy, our work has to accelerate 
because the hate crime--hate incidences, and I'm chagrin of 
the--I deal with the FBI and others on a regular basis. And I'm 
chagrin that the Oklahoma killing and Heather and others--
Heather Heyer and others--were not--were underreported or not 
reported at all. So you have gotten our collective attention, 
but also we know that we must be examples when we look 
internationally as well, dealing with the question of hate and 
religion.
    But thank you so very much. Thank you to all the witnesses. 
Madam Chair, I yield back. Thank you. Thank you for your 
courtesy.
    Ms. Moore. And thank you. Before I enter into my Q&A of the 
witnesses, I just want to provide a little context for this 
hearing, and not assuming that you all know a great deal about 
the OSCE. The OSCE is 57 membership countries across Europe. It 
includes the United States and Canada, the Holy See, Israel, as 
observers. And across the OSCE region, since 2015, with an 
influx of migrants and refugees, we have seen a tremendous rise 
of hate crimes since 2015, and hate speech. This is racism in 
the form of anti-Semitism, Islamophobia, anti-gypsyism, 
Afrophobia, Christian-phobia. Nobody catches a break when it 
comes to H--to the H phenomenon. The FBI's most recent H-crimes 
statistics report more than 7,000 
H crimes in the United States alone. And we have seen 13,000 
H crimes in the OSCE region.
    I lay these data out, Radia and Usra, as a ponder to this 
question: When you talk about underreporting, although every 
single one of the 57 OSCE countries--every single one of them 
has adopted some sort of laws or language proscribing hate--it 
is so hard to enforce it. One of the enforcement obstacles is, 
for example, in France, where they don't allow you to gather 
data on race. Perhaps--you know, and so it makes it very 
difficult when there are laws that prohibit the wearing of the 
hijab, for example, that--so when you talk, Radia, about 
forcing people to engage with each other, when you talk about 
breaking down silos and not having this communitarian approach, 
how do you do that when you--when you have laws against people 
wearing dress that makes them comfortable?
    We have heard among young people that they dare not wear 
these yarmulkes in public, or the star of David. And I would 
imagine that would be the same thing in countries where people 
would not display their Christian cross. How is the whole 
``everybody is French'' culture--and you talked about this a 
little bit--how does that work in terms of trying to engage 
people with antiracist approach?
    Ms. Bakkouch. Thank you very much for this question. It's 
really, like, what is at the heart of a big debate in France. 
First, on the question of the statistics and the numbers, it's 
about the history of France, it's about the Second World War. 
We cannot make numbers out of races, religion. Even, like, 
erase the word ``race'' in the constitution. We were against it 
in Coexister. And it's really difficult. In Coexister, we try 
to find the balance between diversity and unity. We don't want 
to be uniform in our--uniformized, and we don't want to be one 
whole bunch of humans. We want to be recognized as particular 
people with different and plural identities.
    And I'm very concerned about all the laws against the--
against women wearing the hijab. It's a very--like, it's a 
feminist problem also. And it's a problem against Muslims as 
well. We just were fighting against an amendment that was 
proposed by one part of the--of some parliament members, that 
they wanted to forbid moms to wear the hijab when they 
accompanied their children to school events. That was--that's a 
very difficult question. That's a very complicated France that 
we live in. But in Coexister, that's why we try to create a lot 
of safe spaces where people can totally be themselves.
    And we don't care about what you wear, what you--and what 
you want to express. We want you to wear what you want to wear. 
We want you to express the faith you have. We want you. But 
with the goal of trying to build unity. We have to--like, our 
common ground in Coexister is that we all are young people. And 
we also--like, the other common ground here that we want to 
build an inclusive, peaceful, and just society. But everything 
else, we're really proud of our differences. And we're trying 
to work with the government and with the Parliament so they 
will not enforce more of this kind of law.
    And as a last point, about laicite, which is, like, the 
French word for secularism--laicite is really instrumentalized 
because at the beginning in the law it's a beautiful 
principle--it is. It's about freedom of speech, freedom of 
consciousness, freedom of beliefs. It's about being all equal, 
and it's about the state not to say anything or to criticize 
anything about our faith. We defend laicite in this--our school 
intervention, in our work every day. But there is this 
misconception about the fact that laicite is here to erase 
religions. But this is not the case. This is not what is in the 
law today.
    So that's where--because when we are invited then by 
government or by Parliament, they say: What do you want as law 
enforcement? We say, please do not change the law. That--we 
want to defend it as it is in the text, as it is. And, like, in 
the constitution they say that the French Republic is like--I 
mean, is secular. And we want to defend it as it is in the law.
    Thank you very much.
    Ms. Moore. And so are there good data on hate crimes? There 
couldn't be in France. You know, if you're--you know, you're 
attacked because you're an African, you know, a black French 
person, that just is not recorded anywhere. Is that----
    Ms. Bakkouch. Well, we don't--like, it is not a law for a 
state, like, for the national governmental statistic 
institution to make this kind of data. But we--like, we have 
the CNCDH [Commission Nationale Consultative des Droits de 
L'homme]. It's the national commission for human rights that 
report all the hate crime--all the H-word crimes in France 
regarding faith, religion, race, and everything.
    Ms. Moore. Oh, you do?
    Ms. Bakkouch. Yes. We do have that. But it's an independent 
administration. The thing is that the state, the government, 
cannot do that kind of statistics because the thing is we, 
like, we don't want--if we have the horrifying thing to have a 
very extremist and violent party in power in France, we don't 
want them to have our data on our ethnicity, race, religion. So 
that's why it's separated.
    Ms. Moore. So how do you deal with any kind of inequality? 
I mean, if there are women--if there are people of color who 
are not getting the same opportunities educationally, or 
otherwise--those data are not collected either, right?
    Ms. Bakkouch. No.
    Ms. Moore. On discrimination? Okay--let me not just use all 
the time here. I want to ask Usra, Ms. Ghazi, sort of the same 
thing. You know, there is this notion that somehow the hijab is 
a--is a source of oppression. You don't seem to be too 
oppressed this morning. [Laughter.] But that women are wearing 
it because men make them wear it. And that, I guess, the 
assumption is that you could just take the hijab off and be as 
comfortable. And I just want you to lean into how Muslim women 
view the discrimination and prejudice about wearing hijab.
    Ms. Ghazi. Thank you, Representative Moore, for this 
question.
    I don't know if there is one way to answer that question, 
because of the great diversity within Muslim communities and 
within Muslim women, and the variety of ways that they may 
choose, and reasons why they may choose, to cover to a certain 
extent or not.
    In my own family, I grew up being the only--I have two 
other sisters. And neither my sisters nor my mom growing up 
covered their hair. I went through a spiritual awakening, if 
you want to call it that, when I was in junior high and high 
school. And from very early on dealt firsthand with the kinds 
of prejudice and discrimination that women across the world 
face when they are attacked based on how they appear, or their 
decisions about how to clothe their own bodies.
    And so I have a very specific perspective on this issue 
based on my own lived experience that might not be the same as 
my sisters' or my mother's experiences. That said, I think that 
there has been increasingly a lot of--a lot more common ground 
built across Muslim American women, and as a result of the work 
of Muslim women-led institutions, not just in the United States 
but all over the world. And so for anyone who's interested, 
there are plenty of organizations out there now and inspiring 
women who talk in interesting and meaningful ways about what 
draws them to cover and dress the way that they do. And if 
anyone's interested in a more artistic form of that, look up 
the Hijabi Monologues. That is a performance designed after the 
Vagina Monologues, but performed at, you know, campuses and in 
communities across the world, that gets into those stories.
    Ms. Moore. Thank you so much for sharing that.
    Rabbi Myers, I was so inspired by your testimony. And the 
trauma of being an actual survivor, and the ability to come and 
continue to do your work, and to be a cantor, is just--your 
resilience is just inspiring to all of us. And then your 
resolve not to empower H in your own life is inspirational. I 
can tell you that I have--that I am so glad--and I'm going tell 
Senator Cardin when I next see him, about your testimony, where 
you specifically ask us to look at that word, ``tolerance.'' He 
is the Special Rapporteur for Anti-Semitism, Racism, and 
Intolerance. And I literally, on the 5th of July, said: You 
know what? We ought to swap out that word, ``tolerance,'' 
because that means putting up with something. It does not 
really lend itself to where we're trying to head. And that is 
respecting people for where they are and who they are.
    And so I--you know, the big takeaway, for me, from your 
testimony is really it's time to--if you think about what Ms. 
Radia said--you know, we got to learn peace. We have to teach 
it. It doesn't come automatically. And we can start by our 
language. So I just want to thank you for that. And just--maybe 
you can share just briefly with us how you sort of came to this 
``aha'' moment about not empowering--about the importance of 
words, and word choices.
    Rabbi Myers. Thank you, Madam Chair.
    As you were speaking I was thinking that perhaps we need, 
like, a new theme song. And immediately came to mind, it's got 
to be Aretha Franklin.
    Ms. Moore. Yes. Yes, yes, yes, yes.
    Rabbi Myers. She's the one. She's the one.
    Ms. Moore. [Laughs.]
    Rabbi Myers. During those initial 2 weeks after having done 
all of those funerals and unlimited numbers of press interviews 
and so forth, most of what I was speaking at that time I didn't 
really have a chance to write down. I think the combination of 
just no time, no sleep, no quiet moment--it was just divine 
inspiration. When the rally was called for, which was not even 
2 weeks after October 27th--like November 5th or 6th, I think 
it was--and I was invited to participate, I honestly had no 
idea what I wanted to say.
    And I'm standing there amidst all the other participants in 
the tent just thinking: Okay, God, what do you want me to say? 
Because as I would say literally every morning in my prayers, 
the 121st Psalm, ``I lift my eyes to the heavens. Where does my 
help come? My help comes from God, maker of heaven and Earth.'' 
Okay, God, what do you want me to say? Give me the right 
direction. Give me the right words. Maybe I can figure out the 
right order of it.
    And some divine inspiration at that moment is, it was about 
that word. There are many manifestations of the H-word, whether 
it's violence in the Tree of Life or Mother Emanuel AME, or in 
the Sikh Temple in Oak Creek, or in Texas. That's one 
manifestation. Beating up someone on the street because of 
their sexual orientation is another manifestation. Putting a 
noose in an African American worker's locker at his place of 
employment is another manifestation. Painting swastikas is 
another. There are so many.
    Those are the actions. Actions don't just happen from a 
vacuum. There's a source from the action. And for me, it's the 
words. So imagine for a moment you have this beautiful lawn at 
your home, and you see in the middle of the lawn this massive 
weed. Most of us are just going to take the weed and grab the 
top and give a yank. Inevitably, we get the greens. It's going 
to grow back, because you just got the greens. Some of us give 
it a yank, and maybe get half of it with root and you hear that 
annoying snap and go, ah, I didn't get the whole thing. And it 
continues to grow.
    So we need to carefully excise that weed out. So the greens 
are the manifestation. That root that's deep in there has to be 
carefully taken out. To me, it's our words, our language. And 
we just have to be more careful in our thoughts. And as I've 
said many times before, so I can give a shout-out to my mother, 
if you don't have nothing nice to say about someone, say 
nothing. Such a simple American adage. Why can't we just return 
to those simple times where think about what you're going to 
say, and if you can't think of the right thing just don't say 
it?
    Ms. Moore. Well, thank you so much, Rabbi Myers. My brother 
was a member of that temple probably before you came, in 
Pittsburgh. And his son, my nephew, Jason McKinney [sp], he--
I'm going to make sure that you meet him, so that he can 
practice being a cantor in your presence.
    So the power of life and death is in the tongue. Thank you 
so much for being here, Reverend. You were very inspirational 
in your comments. And we want to thank you for your work too, 
Reverend Jenkins. You say thoughts become things. Thoughts 
become things. And you talked about the difference in 
partnerships and relationships. And I just want you to sort of 
expand on that a little bit, because I thought that was so 
profound. That must be some sermon that you've given in the 
pulpit.
    Rev. Jenkins. Not yet.
    Ms. Moore. Not yet, but it's going to be.
    Rev. Jenkins. You know it is.
    Ms. Moore. Partnerships versus relationships. Let's hear 
it. Practice sermon.
    Rev. Jenkins. Oh, practice sermon? Well--no. The--I really 
believe in things that work on the micro level and then scaling 
those to practice at the macro level. There's a group here 
called the Interfaith Conference of Metropolitan Washington. 
It's a collection of 12 religions. It includes Muslim, Jewish, 
Christian, Zoroastrianism. There were religions I was exposed 
to I had never heard of before. And of the many things they do, 
they do things around Dr. King's birthday, bringing together 
multiple religions and those that are non-religious as well. 
They also bring together folks and empower young people. The 
Book of Ecclesiastes, chapter 4, verses 9 through 12 talks 
about the power of two versus one. And it closes in saying the 
cord of three strands is not easily broken.
    The way this has been explained in my life is that there 
are elders, people we walk with, and young people we can pour 
into. And when I think of partnership, I think of what are 
those spaces that we intentionally create that brings together 
those groups, that allows for meaningful interaction, that 
allows for knowledge to be shared, that allows for comrades to 
be made, and then allows for us to pour that into young people 
who need to have that given to them? I think of that when I 
think of my work in the Obama administration amongst the faith 
community partnerships. A number of my colleagues, including 
myself, created toolkits that were used and utilized for a 
number of areas. I know Homeland Security created a toolkit 
that was useful in terms of helping religious communities deal 
with the real threat of security threats.
    You know, we see the world as we like to see it, but we 
also have to live in the world that we currently have, until it 
becomes the world that we want it to be. The way it's said in 
scripture, it says: Be as wise as a serpent, but as harmless as 
a dove. So I think the power of partnership and relationship 
means that I show up to places, whether they cook like me and 
look like me, or they do not, right? And I also bring someone 
with me, so that they can also get that expansion of their 
thinking.
    But the specific piece to that--I think that's critically 
important--is that when we see something working, it's our 
importance--it's our responsibility to take what's working, 
whether it's multiple religions coming together, whether it's 
informing houses of worship on how to protect themselves if 
they ever face--God forbid--the things that we've seen happen. 
Whether it's giving a training on how to engage the LGBTQ 
community--there's an organization here called the National 
Black Justice Coalition, led by a colleague and friend, Mr. 
David Johns. He's testified before Congress when it's come to 
children taking their lives because of being bullied because of 
their sexual orientation.
    Those issues go across religious lines. They go across race 
lines. And I think that we know that they exist. And I think 
for us, it's gathering folks together like this who can 
pinpoint what are the things that are working? And then with 
where you sit, Madam Chairwoman, how do we amplify those things 
that work, and then get that information into the hands not 
only across the country but, from where you sit, globally, they 
can reach the world.
    Ms. Moore. And I just want to ask one more question of Ms. 
Ghazi before we conclude.
    You talked a lot--you said just your--the tone of your 
voice changed in answering a question.
    You said, what would it take to eliminate the social norm 
that we just have all this division and racial chaos. You 
talked about leadership. And so I just want to--leadership on a 
political level? On the civil society level? Where do you think 
that this leadership ought to emanate? Who should have the 
greatest responsibility for leading us?
    Ms. Ghazi. Well, I am a local government nerd. And I feel 
so incredibly lucky to be a woman that looks like me, that has 
had opportunities to serve in local government--both in Boston 
and now as a commissioner for Mayor Bowser's Interfaith 
Council. And so I think that I have a lot of--I give a lot of 
respect to local government officials who are often in the 
field and working hand-in-hand with community organizations. 
But there is a bit of a top-down--a need for top-down setting 
the norm of what inclusion and countering hate should look like 
in the United States.
    And it pained me incredibly after the attack on the Muslim 
community in Christchurch that there are officials in elected 
office in the United States who refused to name Muslims as the 
victims of the attack. And so I so appreciate the Rabbi's 
comments about language. When we so dehumanize a community that 
we are afraid to even name them in a tweet, or in a statement, 
or an announcement, in even sharing our thoughts and prayers 
after a tragedy like that, that pains me and that troubles me.
    But I will say that if you want to identify some of the 
leading trailblazers in building inclusion and countering hate 
in American society when it comes to leadership, we ought to 
look at the leaders at city, state, and county levels who are 
doing incredible work setting the tone and being a model for 
that.
    And very briefly, I'll mention that in terms of local 
government here in Washington, DC, last year Mayor Bowser 
signed legislation to expand protections against clear displays 
of hateful symbols. And so the Community Harassment Prevention 
Emergency Amendment Act of 2018 makes it unlawful to display 
symbols of hate, such as swastikas, nooses, a burning cross, on 
public property or anybody else's property. Additionally, Mayor 
Bowser formed the Interfaith Preparedness and Advisory Group, 
which is a joint effort that brings together the Mayor's Office 
of Religious Affairs--yes, our mayor has an office of religious 
affairs; it's incredible--the Metropolitan Police Department, 
and the District's Homeland Security and Emergency Management 
Agency to facilitate collaboration with the District's faith-
based communities.
    So there is a lot here in Washington, DC, and also in 
cities and towns across the country our locally elected 
officials are doing to counter hate. And I think it behooves 
all of us to pay attention to their work.
    Ms. Moore. Thank you so much. One really important 
question. You just can't do this stuff without staff. And I'm 
going to introduce them come heck or high water before we end 
this hearing. But can you just all tell me how your initiatives 
are funded? The good reverend did mention that you need 
resources. I took note of that, that you know all these lofty--
--
    Rev. Jenkins. That was the third point.
    Ms. Moore. You know, you need ideals, and leadership, and--
but you need money too.
    So can you share with us how you're funded? Just down the 
line.
    Ms. Bakkouch. So we have--we are 11 full-time staff in 
Coexister. And we have a budget of near a million euros a year. 
And we are--we have three parts on our budget--public, private, 
and self funding. We have, like, less than 10 percent public 
funds, but we are working very hard to work, again, to partner 
with the state. We have a large part of private funding from 
family foundations, companies foundations that are working with 
us to, like, scale our impact. And we have also a self-funding 
part. We are selling books and a lot of money comes back to us. 
And we also sell consultancy trainings for companies. But as, 
like, not funding by the foundation, but really doing work for 
them. And it's--that's why we're also, like--we're a nonprofit, 
but we also are a social business. And we--oh sorry, maybe 
about the U.S.--the U.S. Embassy in France funded us on one 
project, the Interfaith Tour. It's our international project.
    Ms. Moore. Rabbi.
    Rabbi Myers. Madam Chair, I'm in the unique position 
because I'm the rabbi of a synagogue. That's my calling. So 
there isn't, shall we say, outside funding that perhaps some of 
the other NGOs might have in that regard. That doesn't exist. 
Opportunities to speak around the country on these comparable 
tropes, when they exist I go because these NGOs will bring me 
in to speak. But me personally, I came here on my own dime.
    Ms. Moore. Well, if they can get a plane ticket together 
and a hotel room, you'll come and speak to people and inspire 
them? That's good to know.
    Reverend.
    Rev. Jenkins. Thank you for the question. I in my day job 
work at The Expectations Project. We're a national education 
nonprofit. So that is private grants and the philanthropic 
community. In my private life, whether the church I attend--you 
talked about church ministries--the nonprofits that I'm a part 
of, really we're very dependent upon individual giving and, 
again, the philanthropic community that provides funding. And 
then with things like this, so much like the Rabbi, is self 
funded to make sure to be present to be a part of opportunities 
such as this.
    Ms. Ghazi. Thank you, Madam Chairwoman.
    And I'm happy to share a few thoughts. I'm really glad that 
you asked this. We at America Indivisible are 100 percent 
funded by charitable contributions, primarily from individual 
donors and small family foundations. And we greatly appreciate 
this support. However, we want to and need to do more. Our 
programs are scalable and could be implanted across the country 
if only we had the resources to do that kind of work 
nationally. And so we welcome the support from donors, and 
anybody interested to support our work and learn more at 
AmericaIndivisible.org.
    I will say one last point, and that is we absolutely 
encourage government agencies at all levels to invest in 
funding opportunities that strengthen the civic health of all 
Americans and promote inclusive policymaking. I do, however, 
want to make a clear note that funneling these funds through 
security-focused agencies inadvertently reinforces tropes about 
our communities as security risks. So any such funding, if it 
truly about inclusion, should not be coming from budgets tied 
to security and policing.
    Ms. Moore. Well, thank you so much.
    We actually have one more speaker. And our speaker will be 
joining us by way of video from Belgium. She wanted to be here, 
but she's in Belgium. Alina Bricman is the elected president of 
the European Union of Jewish Students, where she represents 
over 160,000 young Jews in international organizations, 
community--Jewish communities and other civil society 
organizations. And so we welcome by video Alina Bricman.

  ALINA BRICMAN, PRESIDENT, EUROPEAN UNION OF JEWISH STUDENTS

    Ms. Bricman. Thank you, Mr. Chairman, and distinguished 
committee members. It's an honor to speak before you today. My 
name is Alina Bricman. I am the chair of the European Union of 
Jewish Students, a 40-year-old umbrella organization of 
national Jewish student unions across Europe. We operate in 35 
countries and represent over 160,000 young Jews--about 10 
percent of Europe's Jewish population.
    We represent them to the European Union institutions, the 
United Nations Human Rights Council, the OSCE Office of 
Democratic Institutions and Human Rights, other international 
bodies, Jewish communities, civil societies, the youth sector, 
and as of now the U.S. Congress. EUJS calls for religious 
pluralism, recognizes the value of interfaith and intercultural 
dialogue, and speaks the language of universalism--united in 
our belief that Jewish rights are human rights and human rights 
are Jewish rights.
    On the 4th of July, as the United States was celebrating 
its Independence Day, we were taking note of an important 
milestone, the first ever EU-wide report on the perceptions and 
experiences of young Jews in Europe, a report by the European 
Commission and the EU Fundamental Rights Agency, drawn up by 
the Jewish Policy and Research Institute at our request. For 
the first time, we had data to back up what we intuitively knew 
and paint the sourced picture about who young Jews is Europe 
really are.
    The report showed troubling results. Forty-four percent of 
young Jewish Europeans experience anti-Semitic harassment. So 
almost one in two young Jews, which is 12 percent higher than 
their elders. Eighty percent of young victims do not report 
harassment. Forty-five percent of young Jewish Europeans choose 
not to wear, carry, or display distinguishable Jewish items. 
Forty-one percent have considered emigrating. And 85 percent 
have been targets of anti-Israel bias. Also, only 17 percent 
think governments are effective in their work to combat anti-
Semitism.
    These numbers are worrying, and they represent broader 
global trends. However, what we also got to see is the 
passionate and engaged attitude these young people hold toward 
the world. Eighty-one percent of the young Jewish Europeans 
consider the strength of their Jewish identity to be high. They 
also understand the issues faced by other communities and feel 
a part of a bigger movement. Eighty-one percent believe racism 
is a problem, and 74 percent perceive an increase specifically 
in anti-Muslim hatred.
    The task before us, and yourselves especially, is to 
understand how to best mobilize this enormous social capital, 
how to best help these 81 percent of young Jews, for instance, 
who say their identity is strong, to make positive change in 
society. So we propose three things. Number 1, invest in 
education. From the highest levels of political decisionmaking, 
a strong commitment to anti-racist education must come forward. 
This also trickles down to ministries of education, 
policymakers, university bodies, and eventually teachers and 
students. Anti-bias training, a better understanding of 
contributions of migrants to the social fabric, and a positive, 
celebratory approach to diversity are key.
    Number 2, support civil society initiatives. Civil society 
is at the front of intercultural dialogue, bringing to life 
original and constructive solutions. Funding, as well as 
visibility and cross-party political support should be made 
ready to them.
    And finally, depoliticize anti-Semitism and depoliticize 
racism. Engage responsibly in the public arena. Anti-Semitism, 
racism, and extremism are not left or right issues; they show 
their ugly reach across and outside of the political spectrum. 
Anti-Semitism is a complex phenomenon, best described by the 
International Holocaust Remembrance Alliance working definition 
and its examples. Governments should work to mainstream this 
definition and align their discourse to it, without 
instrumentalizing such important topics as the Israel and 
Palestinian conflict, immigration, or Holocaust remembrance.
    I can assure EUJS is ready to be a trustworthy partner in 
the fight against intolerance, and there are so many amazing 
civil society initiatives. We are ready to contribute our fair 
share. We only need the political support to do it.
    Thank you, Mr. Chairman and distinguished committee 
members. It's an honor to speak----
    Ms. Moore. Wow. Out of the mouths of babes.
    Education against anti-racism, anti-Semitism, anti-bias. 
Supporting civil society. You know, this is--this is a bottom-
up approach that is indispensable to our democracy, is enabling 
funding, resourcing civil society. And depoliticizing racism 
and anti-Semitism. It's not a Democrat or Republican 
initiative.
    I want to thank each and every one of you here for your 
amazing testimony. I found it enlightening. And I want to thank 
the staff of the Helsinki Commission for their always good 
work.
    First in recruiting this excellent panel, none of whom we 
would have met personally without their pursuit of you. Want to 
first thank Mr. Alex Johnson, who is chief of staff of the 
Helsinki Commission staff. Thank you. Just wave. Just give a 
shout-out, Alex Johnson. Dr. Mischa Thompson is one of our head 
researchers. Ms. Nida--I'm sorry, a very elderly young woman 
who just celebrated her, like, 23d birthday or something. 
[Laughter.] Michelle Ngirbabul, who's over there by the door. 
And Izmira Aitch, who's on my staff but leans very heavily into 
the Helsinki process.
    Thanks all of you again. I think our visitors are hanging 
around for a couple of minutes if you just have a burning 
question that you need to ask. Thank the videographers and 
everyone who made this an excellent, excellent hearing. Look, 
there's our photographer. [Laughter.]
    Thank you so much. And with that, this hearing is 
concluded. And also, before I hit this gavel, thank Mr. 
Hastings once again for giving me the privilege of chairing 
this event. [Sounds gavel.]
    [Whereupon, at 12:57 p.m., the hearing ended.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Alcee L. Hastings, Chairman, Commission on 
                   Security and Cooperation in Europe

    Last month marked the four-year anniversary of the horrific 
shooting that took nine lives at the Emanuel African Methodist 
Episcopal (A.M.E.) Church in Charleston, South Carolina. 
Emanuel A.M.E. has played a key role in major periods of 
American history, including the antebellum South and the civil 
rights movement. Founded in 1816, the church has survived 
tragedies spanning from arson attempts to a devastating 
earthquake. Yet it was on June 17th during a Wednesday night 
Bible study that changed the church, and our nation, forever.
    Three years ago, 49 people were killed in my home state of 
Florida at the Pulse Nightclub in Orlando, in what was at that 
time the worst mass shooting in the history of our nation. So 
many of us remain shaken by this horrific attack on the LGBTQ 
community and that such violence has continued targeting 
different communities and faiths.
    Tragically in the last year, houses of worship in 
Pittsburgh, New Zealand, Sri Lanka and in the San Diego area 
became the sites of even more attacks, driven by outright 
bigotry, hatred, and a lack of humanity. In the same vein, a 
failed attempt to enter and attack a historically black church 
led a perpetrator to shoot two African-American grocers at a 
nearby store in Kentucky. Sadly, only ten days following that 
attack, three black churches in Louisiana were lost to arson 
harkening back to times in our recent history where black 
churches were routinely targeted during our countries' civil 
rights struggle.
    In these moments of tragedy, we have seen how religious 
leaders and civil society organizations such as interfaith 
institutions can play an integral part in preventing violence 
and healing their communities. We are honored to have Rabbi 
Myers with us here today from the Tree of Life Congregation, a 
vibrant Reform Jewish Synagogue.
    As a leader in his community, Rabbi Myers took an oath to 
act following the horror which took place in his sanctuary--an 
oath to speak out not only for his own community, but also when 
others were targeted. A day after the Christchurch mosque 
attacks in New Zealand, Rabbi Myers' congregation raised 
$45,000 to support the victims of the Christchurch attacks. 
When asked why, his congregation said the following: ``We feel 
compelled to come to the aid of those communities, just as our 
Jewish community was so compassionately supported only a few 
short months ago by people around the world of many faiths.''
    When religious actors speak out to condemn violent acts, 
their words can carry a wide-ranging and powerful impact. Their 
actions are a testament to how interfaith partnerships can 
benefit us all.
    The protection of our social institutions including places 
of worship from hate-motivated violence must be taken 
seriously. Violent attacks targeting minority, ethnic, and 
religious communities are spreading at a fast space, and we all 
must take swift action to reverse these disturbing trends. No 
one should fear expressing their constitutional right to 
practice their faith in this country.
    I have the honor of being Chairman of the Helsinki 
Commission, a U.S. government agency created to ensure 
countries throughout North America and Europe abide by the 
human rights and other commitments agreed to more than four 
decades ago enshrined in the Helsinki Final Act. While we have 
made significant strides with these bedrock principles, much 
work remains to be done.
    At the Helsinki Commission, we express our resolve to 
protect human rights at home and advance societies that are 
safe, inclusive, and equitable. And we will continue to work 
with the international community to ensure governments, law 
enforcement, and all communities have the best resources 
available to prevent and respond to hate crimes that target our 
citizens no matter how they pray, look, love, or where they are 
from.
    It is for this reason that I have supported greater 
cooperation between the U.S., European governments, and 
multilateral organizations including the European Union and the 
OSCE in developing joint initiatives to address prejudice and 
discrimination in our societies. I am currently working with 
Congressional appropriators and the State Department to see 
that initiatives our Commission advocated for over a decade 
ago, such as the OSCE's Tolerance and Non-Discrimination Unit, 
are well-funded and able to address the concerns of all 
vulnerable communities, from addressing anti-Semitism and anti-
Muslim bigotry to racism and xenophobia.
    One effort, now in its eighth year supported by the State 
Department and implemented by the German Marshall Fund called 
the Transatlantic Inclusion Leaders Network has brought 
together over 200 young elected and civil society leaders from 
diverse communities to build the foundations for a shared 
future whereby race, disability, gender, orientation, religion, 
ethnicity, and other differences are valued. I am pleased that 
some of our alumni recently joined the European Parliament, sit 
in this very Congress, and occupy Ministerial and other 
leadership positions across the OSCE region.
    While these young elected leaders who represent the future 
of our democracies are but one solution, I look forward to 
hearing additional thoughts on what we, Members of Congress, 
the OSCE, civil society, religious actors, and young people--
our future--can do to effectively respond to attempts to erode 
peace and security in our societies.
    Let us remain steadfast in ensuring and protecting the 
human rights of all in our country and across the globe. I 
welcome your testimony. Thank you.

  Prepared Statement of Hon. Gwen Moore, Commissioner, Commission on 
                   Security and Cooperation in Europe

     At 10:25 am on August 5th, 2012, first responders were 
alerted about a shooting in Oak Creek, Wisconsin. Next month we 
will remember the lives of six Sikh worshippers murdered seven 
years ago. Six bright lights snuffed out by the cowardice and 
intolerance of hate-motivated violence. The Sikh and non-Sikh 
Oak Creek community and the world were horrified to learn that 
productive and loving members of their community were murdered 
in their holy place, their inner sanctum, their designated 
place to commune with God.
    All of us have something to gain from those who look 
differently, pray differently, and speak differently. We must 
not wait until tragedy strikes to learn the value of mutual 
respect. We must seize every opportunity to denounce hate-
motivated violence. In doing so, we protect the value of 
freedom of expression. The freedom of expression is the 
hallmark of democracy. To have one's voice heard is a hallmark 
of human dignity and the very lifeblood of democracy. This is 
why I count it an honor to serve as a commissioner of the U.S. 
Helsinki Commission. The OSCE emboldens the democratic efforts 
of those who stand for justice both at home and abroad.
    I have spent my career advocating for policies, programs, 
and services that prioritize tolerance and inclusion. I have 
led my fellow members in protests here in the very halls of 
Congress that have raised global awareness for victims of 
terror. I have introduced resolutions to recognize the crisis 
of intolerant violence against Native women. One of the most 
prolific and influential religious actors of our time famously 
said, ``Darkness cannot drive out darkness; only light can do 
that. Hate cannot drive out hate; only love can do that.'' Let 
us use this truth as we examine the role of religious actors in 
responding to hate. Let us firmly use love and responsible 
policy to develop policies that will save lives and protect our 
most precious right to religious freedom.
    I am most grateful and proud of the Wisconsinites I 
represent in Oak Creek, Wisconsin. They are a shining example 
of how to rebuild a community after a vicious and senseless 
attack on a community. I want to thank all of the religious, 
and faith-based leaders who have joined us today. I want to 
thank them for the solidarity they show in coming here. I also 
want to thank them for displaying the true strength it takes to 
remain resilient in the face of hate.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    In recent years there has been an unfortunate rise in hate 
crimes not only in Europe but in the United States of America. 
We have seen a rise in anti-Semitism, anti-Muslim acts, and 
anti-migrant and anti-refugee sentiments. Addressing these 
issues have been my priority as Special Representative on Anti-
Semitism, Racism, and Intolerance for the OSCE Parliamentary 
Assembly. As Senator, my priority legislation efforts have 
always included civil rights and human rights.
    Hate is unacceptable, and the safety of vulnerable 
communities is of the utmost importance. We must underline the 
importance of coalitions to ensure their protection because it 
is not only the most vulnerable in our societies who are in 
danger when we fail to act, but the very foundations of our 
democracies. United, we are stronger. And when various 
stakeholders come together, we can build capacity within 
government and international institutions to effectively 
counter the rise in hate.
    There are many things we can do collectively to make a 
difference, and a group we cannot do this without are our 
religious actors and interfaith institutions. The witnesses in 
this room today are on the frontlines of developing action 
plans to combat hate in their communities. Radia Bakkouch, 
President of Coexister, is with us today to offer her insights 
and experience in this field. I had the honor of meeting Radia 
and her colleagues in Paris in May. Radia's organization 
promotes diversity, social cohesion, and active coexistence--
aimed at empowering minority communities and tackling 
intolerance in France. I look forward to hearing her views on 
how we can share information and best practices between civil 
society organizations, government institutions, international 
organizations, and of course, in Congress alongside our other 
esteemed panelists.
    Efforts in the U.S. Congress have focused on addressing 
hate in our societies, and numerous legislative initiatives 
have been introduced in the 116th Congress. I introduced a bill 
in 2017 to ban religious, racial and discriminatory profiling 
by law enforcement. I have also held hearings focused on 
combating anti-Semitism and racism. In fact, last week at the 
28th Annual Session on the OSCE Parliamentary Assembly in 
Luxembourg, I hosted a U.S. side event entitled ``Countering 
Hate: Lessons from the Past, Leadership for the Future'' that 
addressed the rise in hate-based incidents we have been 
witnessing across the OSCE region and beyond.
    We called for parliamentarians from across the 57 OSCE 
participating States to adopt an action plan to counter bias 
and discrimination and foster inclusion and discussed what we 
are doing in our own countries to address the problem of hate 
and intolerance. We heard from Dr. Rebecca Erbelding of the 
U.S. Holocaust Memorial Museum, who emphasized that we must not 
ignore early warning signs from the past which are rising to 
the surface in the present. Sadly, we are past early warning 
signs of hate-based incidents as evident from the recent 
tragedies from Pittsburgh and Colombo to Christchurch.
    The collaborative spirit I witnessed at the OSCE PA hearing 
denotes our efforts to work together and tackle this 
unacceptable problem. We have heard of successes from projects 
like the OSCE's Words Into Action project to increase education 
on anti-Semitism and coalition building against hate from 
Michael Link, OSCE parliamentarian and former director of the 
OSCE Office of Democratic Institutions and Human Rights 
(ODIHR), however, much remains to be done and a greater focus 
on deeds rather than words and what actions are needed to 
create a comprehensive effort between government institutions, 
criminal justice systems, civil society actors, and 
international organizations.
    We are here today to hear from the witnesses in the room. 
They understand the very foundations of our democracies are in 
danger. I look forward to hearing their recommendations on how 
we all can collectively change some of the disturbing trends we 
are witnessing such as attacks on places of worship, to push 
back on ugly ideologies and actions, and find concrete ways to 
build safer communities who do not have to live in fear. I look 
forward to hearing how we can all work together to ensure human 
rights and civil rights for all.
    Thank you.

  Prepared Statement of Father James Martin, Editor at Large, America 
                                 Media

    Thank you for inviting me to speak today. I regret that 
some medical treatments prevent me from joining you in person. 
But it's a great honor to be with you.
    On June 12, 2016, 49 people at Pulse, a nightclub that 
attracted a largely LGBT clientele in Orlando, Florida, were 
shot and killed in what was at the time the largest mass 
shooting in US history. In response, there was an outpouring of 
love and support for the LGBT community from almost every 
quarter in the country.
    One notable exception was the Catholic Church, my own 
church. While the U.S. Conference of Catholic Bishops issued a 
brief four-line statement, the words ``gay'' or ``LGBT'' were 
absent from it. As a thought experiment, imagine if 49 people 
from a particular ethnic group were massacred, and the name of 
that ethnic group was omitted from public statements. Moreover, 
in the wake of the U.S. Bishops' statement, only a handful of 
individual Catholic bishops expressed any sympathy. The vast 
majority said absolutely nothing. Even in death the LGBT 
community remained invisible to much of the church.
    The Catholic Church's difficulty in ministering to, and 
even trying to understand, LGBT people has led to Catholic 
magazines and websites that vilify them, priests who single 
them out in homilies as the world's worst sinners, and even 
statements from cardinals, archbishops and bishops overseas 
siding with repressive anti-gay laws that provide for the 
arrest and even execution of gay men and women.
    Why bring this up? Because when it comes to the role that 
religious actors and organizations can play in combating hate 
crimes, the most effective thing they can do is to get their 
own houses of worship in order.
    Racism, sexism and homophobia still exist in many Christian 
denominations, my own included. To turn to racism, we only need 
recall the Rev. Dr. Martin Luther King, Jr.'s trenchant comment 
that the most segregated hour of the week is 11 AM on a Sunday 
morning.
    Last year, an African-American friend of mine, a national 
leader in the US Catholic community, told me a story. Recently, 
he was attending a conference at a town far from his home. When 
Sunday came, he searched for a Catholic church near his hotel 
so that he could attend Mass. Happily, he located one, drove 
there and entered the church. After my friend passed through 
the church doors, a priest, seeing a large, dark-skinned man, 
said to him, ``I'm sorry. You do know that this a Catholic 
church, don't you?''
    ``Yes,'' said my friend. ``Do you know that this is a 
Catholic church?''
    The racism, sexism and homophobia still endemic in some 
Christian churches lead to casually racist, sexist and 
homophobic comments made from the pulpit, as well as overtly 
racist, sexist and homophobic comments made in private. Both 
give a silent blessing to more racism, sexism and homophobia 
among parishioners. Just this month an influential far-right 
Catholic website published an article that opposed even gay-
straight alliances in schools, as part of what they called 
their ``war'' against ``LGBT propaganda.''
    What does such tacit support for prejudice by church 
leaders end up doing? It excuses hate. It fosters hate. It 
blesses hate. And it unintentionally encourages the violence 
that this hate leads to. And make no mistake: Some Catholics 
who treat LGBT people with contempt think they are doing so 
with the church's blessing. Thus, these people think they are 
being prophetic. They don't see themselves as haters. They see 
themselves as prophets. Because they feel the support of their 
churches.
    This is not to say that all or even most Christian churches 
are places of racism, sexism or homophobia. By no means. Often 
it is Christian groups that lead the fight against hatred. 
Witness, obviously, the example of Rev. King in the civil 
rights movement, a true prophet whose main impetus was an 
overtly Christian one. In our own day, I'm proud that the 
Catholic Church in this country has consistently stood up 
against the vilification of refugees and migrants, perhaps the 
newest victims of hatred.
    But any actions or speech that mock, stigmatize, dehumanize 
or otherwise target specific persons or groups of people is 
completely opposed to the Christian worldview. Why? Because it 
legitimizes seeing a person who is different as the ``other.'' 
And this is completely antithetical to the actions of the Jesus 
whom we encounter in the Gospels. In fact, Jesus reached out 
first and foremost to those who were seen as ``other'': women, 
tax collectors, prostitutes, Samaritans, Roman centurions, 
people who were sick, and on and on.
    Jesus always brings those on the outside in. He brings the 
outsider into his circle of friendship.
    Because for Jesus there is no us and them. There is only 
us.
    So the most important thing that religious actors and 
organizations can do to combat hate crimes is not only to fight 
hatred on the outside, but on the inside as well. How? First, 
by taking a clear look at how their organizations speak of, and 
minister to, members of marginalized groups. Second, by 
reaching out to these groups, specifically to make them feel 
welcomed into what are, after all, their churches too. Finally, 
by taking every opportunity to stand with them publicly, to 
advocate for them, to fight for them, even at the risk of 
losing some parishioners.
    Overall, they must remind their own communities and the 
world that for Jesus and therefore for all Christians, there is 
no us and them. There is only us.

    Prepared Statement of Rabbi Hazzan Jeffrey Myers, Tree of Life 
                               Synagogue

    Members of Congress, I thank you for the privilege of 
testifying before you today. I am a victim, witness and 
survivor of the worst attack in a synagogue in the history of 
the United States, and the Jewish community has been present on 
these shores since 1654. Since that fateful day of October 27, 
2018, I, the congregants of Tree of Life (along with two other 
congregations that shared our building--New Light and Dor 
Hadash) and the city of Pittsburgh have been overwhelmed by 
expressions of love from across the planet. People of all 
faiths, colors and sexual orientation have enveloped us in a 
vast global hug that continues unabated. Their message is very 
clear: the acts of one person are not representative of all of 
humanity. But alas, the acts of brutality and cruelty can 
overwhelm us. And, when coupled with incessant anti-Semitic 
words and dastardly deeds across the United States and around 
the world, we are reminded almost daily that a pernicious, 
ancient evil flourishes.
    What most Americans don't know or appreciate is the warmth 
and togetherness that is Pittsburgh. I can state this 
objectively, as I too am an immigrant to Pittsburgh, having 
spent most of my life in the New York and New Jersey area. I 
live in Mr. Rogers' neighborhood, and the love and care from 
people of all walks of life in my city post-October 27 were 
typical prior to this date, only more intense afterwards. 
Religious leaders of all faiths have reached out to me, 
affording me a unique opportunity to get to know them and find 
commonalities where we can work together to better our 
community.
    The metaphor of America as a melting pot is a beautiful 
image, but sadly, it is not true. We do not know our neighbors. 
We live in silos, with no bridges connecting them. Many choose 
to live in their own private silos, not wanting ``others'' to 
enter their silo. Some people just don't know how to build a 
bridge. This is where religious leaders like me make a 
difference: I'm a bridge builder. When the Muslim community 
extended an olive branch to me, I responded by offering an 
olive tree. The same goes for the Roman Catholic, various 
Protestant denominations, the Sikh, Buddhist, Jain, Baptist, 
AME, and so many more that I apologize if I have omitted. We 
have so much in common that we must work together. The modest 
baby steps that we are taking will mature into adult steps, 
hopefully yielding bushels of olives.
    Opportunities to partner with local government, and the 
police department, continue to grow as well. We can be the 
nation's laboratory to model actions that may work throughout 
the country, without me minimizing the efforts of those already 
working to achieve these same goals. We--as clergy and 
congregants--are striving to find ways beyond visiting each 
other's worship services, to really getting to know our 
neighbors, to consider their needs, and to determine how we can 
work together to realize positive outcomes. Please know that 
this was happening in Pittsburgh before October 27, but this 
date--and the atrocity that it brought--created a new sense of 
urgency. We must see to it that all children in all schools 
throughout this country learn about their neighbors, and strive 
to understand them, in an effort to appreciate their faith, not 
merely tolerate them. We must provide the tools for all people 
to honor and respect their neighbors, and right now, we as a 
nation, are not being successful in doing this.
    Just two weeks after October 27, the city of Pittsburgh 
held a rally at Point State Park, and I was asked to speak. It 
was here that I made a pledge not to use the word ``hate,'' 
which I will say here only once for demonstration purposes. The 
H word, as I call it, is a four-letter word, an obscenity that 
deserves to be in our mental waste baskets. If you truly must 
say that you H something, just say that you don't like it. H 
speech is a severe choice of words that often leads to violent 
actions, as was the case in the Tree of Life shootings. When 
you don't understand your neighbor, it can lead to mistrust, 
fear, loathing and H speech, which ultimately leads you to 
unconscionable and deadly actions.
    Our nation right now is suffering an epidemic of uncivil 
discourse. People cannot hold civil conversations with their 
neighbors, be it in person or through social media. As our 
elected leaders, I call you to task for this epidemic. When you 
use H speech against one another, you model uncivil discourse 
for all Americans. As our leaders, you are teaching us that it 
is acceptable to behave this way, and it's simply not. Is it 
any wonder that my fellow citizens speak in uncivil terms and 
use H speech? You condone it and model it. It is time for a 
different direction. The path towards civil discourse must 
start with all of you, our elected leaders. When you model 
civil discourse, you teach us appropriate ways to speak to one 
another. This does not require any legislation on your part. It 
requires you to think about the impact of your words, for as 
the Jewish tradition teaches, the most powerful weapon a human 
being possesses are words. They can wound or they can heal. 
There is way too much wounding emanating out of Washington, 
D.C. Whom among you will be brave enough to say to the American 
people: ``I pledge that I will not use the H word. I call upon 
my fellow legislators to do the same, to help restore civil 
discourse in America?'' Our eyes and ears turn to you. What 
will you do?
    I thank you for your time and attention.

       Prepared Statement of Radia Bakkouch, President, Coexister

    I would like to thank Congressman Hastings, Senator Cardin, 
the members of the Commission on Security and Cooperation in 
Europe for inviting me to this hearing. My name is Radia 
Bakkouch, I am 27 years old. I graduated from Sciences Po Paris 
in International Relations. I have been president of Coexister, 
the European interfaith youth movement, for four years. I am a 
peace activist and a reflective practitioner and I am honored 
to be here today.
    In France, there is a complex relationship with otherness 
and with understanding differences. While the overall trend 
leans towards universalism and the uniformity of cultural 
practices, spiritual and religious identity resists these 
mechanisms of standardization, and symbolizes tabou, fear, 
ignorance. Unfortunately, hate crimes motivated by religious 
bias only come second in number, behind racially-motivated 
crimes. For instance, in 2018, the number of antisemitic 
attacks in France rose by 74%. In the past 10 years, like in 
Montauban and Toulouse in 2012, in Paris and its northern 
suburb in 2015, in a church in Saint Etienne de Rouvray in 
2016, people were killed because of their religion and people 
killed in the name of their religion.
    If faith is at the heart of tensions, it can also be at the 
heart of the solution. Coexister is a youth-led interfaith 
organization gathering Jews, Christians, Muslims, Atheists, 
Agnostics, Buddhists, from 15 to 35 years old and within our 
organization, we believe in the concept of the ``faith for 
good'' and in the practice of Interfaith cooperation. In 52 
European cities, Coexister has offered to 10,000 young people 
to experience interfaith diversity in a good way and has 
tackled stereotypes of 120,000 students. We empower young 
people and give them the skills, the opportunities and the 
relationships they need to build peace and prevent any type of 
violence and exclusion. We offer them safe spaces where they 
can be fully themselves, with others who are completely 
different from them, and tools so they can act together for 
social justice, inclusion, mutual respect and peace.
    What are our recommendations? Thousands of interfaith 
initiatives and practices exist around the world. The United 
Religions Initiative network alone already gathers more than 
1,000 initiatives in 109 countries. Yet in order to maximise 
their outreach and systemic impact they have to be State-
supported.

1. Defend pluralistic societies 

    We need to defend, protect and promote a pluralistic 
society. Citizens can prevent hate against diversity if they 
are able to face diversity in their daily life. 
Multiculturalism and communitarianism are not the only ways to 
apprehend diversity in society.

2. Support ``faith for good'' 

    Faith is a specific part of the identity that is 
substantial, chosen, and can be a source of bad and good. 
Everyone has faith in something, it is not the prerogative of 
religions only. Linking the spiritual resources to actions 
toward peacebuilding and social justice strengthen the actions.

3. Practice interfaith cooperation 

    Faith for good is even stronger when it is used in 
interfaith cooperation, by bringing people that deeply disagree 
on their faith together. We need to acknowledge that 
cooperating with people who are different requires time, 
practice and willingness.

4. Come out of the communitarian struggles 

    It is important that not only Jewish people fight against 
antisemitism, Muslim people fight against islamophobia, etc ! 
We need to acknowledge all type of hate crimes that target a 
particular population, and engage everyone to feel concerned by 
hate crimes.

5. Fight ``for'' rather than fight ``against'' 

    Fighting ``against'' hate is important, but fighting 
``for'' peace is vital. Our purpose should not only be to 
diminish hate. It needs to tend towards an ideal model. Non 
violence is a prerequisite but tolerance is not enough. We 
defend a society where active coexistence is the method for 
relationships.

6. Include other actors in the fight against hate 

    Religious actors can influence the response to hate but 
citizens and young people are a great lever also. We usually 
include young people when we talk about the future, but young 
people are the citizens of today and they need to be implicated 
today to face the challenges of our society.

    Responding to hate by using faith and religious tools can 
be efficient and lead to a lasting peace. In Coexister, our 
founding intuition is that peace must be taught, experimented, 
and a process of conscientization. We need to learn peace, not 
learn how to make peace, because it would mean we can not 
prevent the conflict, but learn and cherish actual peace. We 
would like to make peace a major learning discipline in all 
informal educational policies throughout the world.

Prepared Statement of Reverend Aaron Jenkins, Vice President of Policy 
                 and Advocacy, The Expectations Project

    Good Morning. My name is Aaron Jenkins and I am honored to 
speak before you today for this important hearing entitled, 
``Responding to Hate: The Role of Religious Actors.'' I am an 
ordained Christian Minister and serve at New Solid Rock Church 
Ministries in Landover Hills, MD. I am the Vice President of 
Policy and Advocacy at The Expectations Project--an education 
focused, non profit organization that is dedicated to engaging 
faith actors to address issues of education inequities in 
public school education throughout the United States.
    I want to thank the Commission Members, my co-panelists and 
those joining us in this chamber and electronically for today's 
critically important discussion. What brought me to this space 
was really work that began in my youth. As a high school junior 
(many years ago) I joined an interfaith dialogue program for 
African American and Jewish high school students that engaged 
participants in a three part program of: Cultural and popular 
education immersion, Experiential education and travel, and 
Public speaking and facilitation skill set training.
    The overall goal? A trained group of youth leaders focused 
on working on the elimination of racism, anti-Semitism and all 
forms of prejudice and discrimination. It was a multilevel 
program that was initially founded by the late Congressman 
William Gray and George Ross--the program is called Operation 
Understanding. My participation in the Washington, DC version, 
Operation Understanding DC (OUDC) fundamentally shifted my life 
to seek to understand before being understood and expanded my 
interest in the elimination of hate in its various forms.
    I would later become a staff member for this organization, 
which allowed me to spend seven years educating and training 
young people to facilitate a similar shift in their lives and 
thinking. This position allowed me the opportunity to come to 
Capitol Hill for a gathering of Jewish and African American 
Congressional members organized by Congressmember Hastings. 
That event, similar to this hearing, provided my students with 
a chance to address decisionmakers on lessons from this rich 
experience to address the issue of combating hate in systemic 
ways.
    I have seen first hand the power of community engagement, 
dialogue and the impact of programming and the participation of 
faith actors to combat deeply entrenched societal ills. I 
believe that faith communities serve an important role not only 
in response to hate crimes but are positioned by responsibility 
to their traditions and placement in the community to be 
proactive instruments of action. I believe in the power of 
faith communities to impact hate in three ways:

1. The power of partnership: In Washington, DC, I am a part of 
a network of Christian clergy members called ``Peace Walks 
DC.'' The group of clergy work in communities in Washington, DC 
that have been impacted by gun violence, underinvestment and 
other economic, political and social issues. Every Friday, 
members of this group walk in neighborhoods in either Ward 7 or 
Ward 8 to meet with community members and ask questions such 
as, ``What do you need? What does your community need?'' and 
``How can we pray for you?'' Participants include government 
agencies, an anchor faith actor institution from that community 
and volunteer congregations members from around Washington, DC. 
Training occurs for all participants. The host? The Peace 
Fellowship Church of Washington, DC, is based in Ward 7, one of 
the communities that receives outreach. To combat hate crimes, 
multi-level partnerships that are community focused must occur. 
Partners across religious, non profit/non governmental, 
governmental and trusted community voices, are critically 
important to addressing hate crimes wherever they occur.

2. The power of relationship: I believe that ``The relational 
is transformational.'' When the horrific shooting occurred at 
the Tree of Life Synagogue, a service and rally were organized 
by a local Jewish Congregation, Adas Israel. The rapid, 
organized response of this gathering met a need of the 
community to show support and to heal. The synagogue was packed 
to capacity. Inside, the leadership of this tri-state area in 
Washington, DC, congregants from various faith traditions and 
visitors. Outside, hundreds more persons that could not enter. 
As I entered the building, I saw my colleague and friend, Imam 
Johari Abdul Malik. He was later asked to speak the outside 
crowd and started his remarks by saying ``Peace'' in Arabic, 
Hebrew, and English. How did he know to do that? This was not 
his first time speaking to an interfaith crowd. He drew from 
past experiences to connect. Any plan to address hate must 
engage faith actors within their faith traditions and across 
faith traditions in respectful and meaningful ways. We cannot 
wait until the next hate crime happens. These relationships 
should be cultivated and actively engaged for both reactive and 
proactive use.

3. The power of investment, training and resources: ``We need 
things for the kids to do. We need a new basketball court. We 
need a new recreation center.'' These are a few of the 
responses I received as I have worked with Peace Walks this 
year as a facilitator and community engagement participant. How 
did I know to ask these questions? Training. I both received 
training and am a volunteer trainer. To respond to hate crimes, 
faith leaders benefit from these three things: Training, 
Investment and Resources. Communities in need, that have 
experienced hate crimes and other atrocities, know what they 
need. We must trust them and listen to them. We know that there 
are many needs of communities where culprits of hate crimes 
come from, communities where hate crimes occur and communities 
where places of need in those community exist. If we are going 
to be proactive in the dual work of disarming those that mean 
to harm others and helping communities in need, we must go to 
them, we must listen to them and we must act in them wherever 
they exist. We must take time to listen to the needs shared and 
the needs observed and we must take action to provide what is 
needed.

    I close with the words of someone whose name is often 
invoked when discussing issues of human rights, the Reverend 
Dr. Martin Luther King Jr. His last book was entitled, ``Where 
Do We Go from Here: Chaos or Community?'' This is a fitting 
question for our discussion today. May we move away from the 
chaos of hate to the necessity of community action. Thank you.

  Prepared Statement of Usra Ghazi, Director of Policy and Programs, 
                          America Indivisible

    Chairman Hastings, Co-Chairman Wicker, distinguished 
Members of the Commission, thank you for inviting me to speak 
today. The issue of hate crimes in the U.S., and specifically 
those targeting religious minorities, is one of growing 
national concern. At America Indivisible, we are primarily 
focused on the issue of racialized anti-Muslim bigotry and the 
ways that it impacts Muslim communities and those perceived to 
be Muslim, which may include Arab, Black, Sikh, and South Asian 
Americans. As a coalition-based organization, we partner across 
communities to identify solutions that strengthen relationships 
between bigotry-impacted communities and their neighbors and 
local government representatives.
    One very critical way that religious actors are responding 
to hate crimes and discrimination is to build more effective 
ways to monitor and report on these events. Federal hate crimes 
statistics consistently under report hate crime incidents for 
many reasons, including the lack of a standardized reporting 
process for all states, and also due to strained relationships 
between bigotry-impacted communities and law enforcement 
entities. In my conversations with Muslim, Arab, and Sikh 
communities impacted by anti-Muslim vandalism, bias, and hate, 
many have expressed a desire to keep their heads down rather 
than reporting these events to law enforcement agencies. 
Despite this challenge, Sikh, Muslim, Arab, South Asian, and 
religious communities of color are increasingly coordinating 
``Know Your Rights'' workshops and meetings with law 
enforcement officials within their houses of worship and 
community centers. Religious and civic leaders do this work 
with great risk to their community reputations. Those who 
choose to engage with such agencies risk being attacked for 
cooperating with a government whose chief executive antagonizes 
Muslims and other minorities in his rhetoric and policies.
    This takes me to my second point, about the proactive ways 
that religious actors are responding to hate. Due to the rise 
of hate crimes and hate speech against Muslim and Sikh 
Americans, these communities by necessity have had to organize 
outreach efforts to humanize themselves while raising cultural 
and religious literacy among their neighbors and governments. 
These range from ``Meet a Muslim'' or ``Wear a Turban'' days to 
working with media and entertainment industry officials about 
misrepresentation of these groups in their media content. These 
communities are also building their civic health, getting more 
involved in elections, and running for office at record rates. 
We now have Muslim and Sikh mayors as well as officials from 
these faiths in a range of other governmental positions. These 
efforts help to ensure that our cities, counties, and states 
are truly representative of the rich diversity of American 
communities.
    At America Indivisible, we work with officials in city, 
state, and county-level government to help grow their cultural 
and religious literacy, while building the civic health of 
bigotry-impacted communities. Developing effective ways to 
track and report on hate crimes is absolutely critical, but it 
is also one step too late. Social science research proves that 
when diverse communities have strong associational ties, like 
working together on community projects, they are much more 
resilient in times of conflict. Our hope for the future is that 
more mayors, governors, and county officials will recognize the 
many ways that religious actors are contributing to the civic 
health of their neighborhoods. We would like to see more of 
these officials visiting their local mosques or temples. Our 
communities have been shaping the American social fabric as 
small business owners and professionals, as educators or 
officers in the armed forces for decades, and in some cases, 
generations. One sure fire way to prevent hate and build 
inclusion is to recognize these contributions and invest in 
these communities' civic health.

   Prepared Statement of Alina Bricman, President, European Union of 
                            Jewish Students

    Thank you Mr Chairman, distinguished Committee members. It 
is an honor to appear before you today. My name is Alina 
Bricman, I chair the European Union of Jewish Students, the 40 
year old umbrella organization of national Jewish student 
unions across Europe. We operate in 35 countries and represent 
over 160,000 young Jews--10% of Europe's Jewish population. We 
represent them to the European Union institutions, the UN Human 
Rights Council, the OSCE Office of Democratic Institutions and 
Human Rights, and other international bodies, Jewish 
communities, civil society, the youth sector, and as of now--
the US Congress.
    EUJS cultivates pluralism, recognizes the value of 
interfaith and intercultural dialogue and speaks the language 
of universalism, driven by a belief that Jewish rights are 
Human rights and human rights are Jewish rights.
    On the 4th of July, as the United States was celebrating 
its Independence Day, we were taking note of an important 
milestone: the first ever EU wide report on the perceptions and 
experiences of antisemitism among young Jews--a report by the 
European Commission and the EU Fundamental Rights Agency, drawn 
up by the Jewish Policy Research Institute at our request. For 
the first time, we had data to back up what we intuitively knew 
and to paint a sourced picture about who young Jews in Europe 
are.
    The report showed troubling results:

    <bullet> L44% of young Jewish Europeans experienced 
antisemitic harassment--so almost 1 in 2 young Jews, which is 
12% higher than their elders.
    <bullet> L80% of young victims do not report harassment to 
the police or any other authority
    <bullet> L45% of young Jewish Europeans choose not to wear, 
carry or display distinguishable Jewish items in public because 
they are concerned about their safety
    <bullet> L41% have considered emigrating because they did 
not feel safe living in Europe as a Jewish person
    <bullet> L85% are targets of anti-Israel bias
    <bullet> LAlso, only 17% think Governments are effective in 
their work to combat antisemitism.

    These numbers are worrying, and they represent a broader 
global trend.
    However, what we also got to see is the passionate and 
engaged attitude these young people hold towards the world:

    <bullet> L81% of the young Jewish Europeans declared the 
strength of their Jewish identity to be high;
    <bullet> LThey also understand the issues faced by other 
communities and feel part of a global community: 81% of young 
Jewish Europeans believe racism is a problem in their countries 
and 74% perceive an increase specifically of anti-Muslim hatred

    The task before us and you today is to understand how to 
best mobilize this enormous social capital: how to best help 
these 81% of young Jews, for instance, who say their identity 
is strong to make positive change in our society.

THREE THINGS:

        1. Invest in education: From the highest levels of 
        political decision making, a strong commitment to 
        antiracist education must come forward. This ought to 
        trickle down to ministries of education, policy makers, 
        university bodies and eventually teachers and students. 
        Anti-bias trainings, a better understanding of 
        contributions of minorities to the social fabric and a 
        positive, celebratory approach to diversity are key.

        2. Support civil society initiatives: Civil society is 
        at the forefront of intercultural dialogue, bringing to 
        life original and constructive solutions. Funding as 
        well as visibility and cross-party political support 
        should be made ready to them.

        3. Depoliticize antisemitism and racism and engage 
        responsibly in the public arena: antisemitism, racism 
        and extremism are not left or right issues, they show 
        their ugly reach across and outside of the political 
        spectrum. Antisemitism is a complex phenomenon, best 
        described by the International Holocaust Remembrance 
        Alliance working definition and its examples. 
        Governments should work to mainstream this definition 
        and align their discourse to it, without 
        instrumentalizing such important topics as the Israeli-
        Palestinian conflict, immigration or Holocaust 
        remembrance.

    I can assure you, EUJS is ready to be a trustworthy partner 
in the fight against intolerance, as are so many amazing civil 
society bodies and individuals: we are ready to contribute our 
fair share--we only need the political will to support it.

                                 [all]

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
